INDEX TO APPENDIX
PAGE(S)

1.
2.
3.

Unpublished opinion by Ninth Circuit affirming judgment
on appeal in case no. 18-55528, entered 8/25/20

39-42

Order granting certificate of appealability in Ninth Circuit
case no. 18-55528, filed 9/25/18

43-44

Judgment in C.D. Cal. case no. LACV 13-1624-JLS (LAL),
entered 3/9/183

45

4.

Order Accepting Report and Recommendations of United States
Magistrate Judge in C.D. Cal. case no. LACV 13-1624-JLS (LAL),
entered 3/9/1846-47

5.

Report and Recommendation of United States Magistrate
Judge in C.D. Cal. case no. LACV 13-1624-JLS (LAL),
filed 8/22/17

6.
7.
8.

Order denying petition for review in California Supreme
Court case no. S204281, filed 9/19/12

Unpublished opinion in California Court of Appeal
case no. B229725 filed 6/13/12
Portions of clerk’s transcript of trial reflecting court’s rejection
of plea agreement in Los Angeles County Superior Court
case no. KA088180, 12/14/09

38

48-72

I
■

73
74-94

95-110

Case: 18-55528, 08/25/2020, ID: 11801599, DktEntry: 46-1, Page 1 of 4

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

FILED
AUG 25 2020
MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
ARTURO BELTRAN,

No.

Petitioner-Appellant,

U.S. COURT OF APPEALS

18-55528

D.C. No.
2:13-cv-01624-JLS-LAL

v.
CRAIG KOENIG, Acting Warden,

MEMORANDUM*

Respondent-Appellee.
Appeal from the United States District Court
for the Central District of California
Louise A. Lamothe, Magistrate Judge, Presiding
Submitted August 10, 2020**
Pasadena, California
Before: CALLAHAN and BUMATAY, Circuit Judges, and M. WATSON,***
District Judge.
Petitioner Arturo Beltran appeals the district court’s denial of his habeas
petition under 28 U.S.C. § 2254, contending that the state court magistrate judge’s

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).
***

The Honorable Michael H. Watson, United States District Judge for
the Southern District of Ohio, sitting by designation.

Pet. App. 39

Case: 18-55528, 08/25/2020, ID: 11801599, DktEntry: 46-1, Page 2 of 4

rejection of his plea agreement violated the Fourteenth Amendment’s Due Process
Clause.
The California state court magistrate judge rejected Petitioner’s waiver of
rights form, which Petitioner had signed pursuant to a proposed 24-year plea
agreement, after Petitioner stated on the record that he did not understand all the
“constitutional rights and consequences” in the waiver. The state court magistrate
judge also denied Petitioner’s counsel’s requests for additional time, and his
request to renew the motion to change his plea. Petitioner later entered a not-guilty
plea and proceeded to trial where he testified on his own behalf. The state court
trial judge sentenced Petitioner to 130 years to life in state prison.
On direct appeal, the California Court of Appeals denied Petitioner’s Due
Process claim, finding it to be procedurally defaulted under California law. It
further found that Petitioner did not establish that the magistrate judge’s rejection
of the plea agreement caused prejudice, as defined by the California Supreme
Court. The California Supreme Court denied review of the petition on September
19, 2012.
On March 7, 2013, Petitioner filed a federal habeas petition in the Central
District of California, which he later amended. On August 22, 2017, the federal
magistrate judge issued a report and recommendation (“R&R”) recommending that
the habeas petition be denied. The district court judge adopted the R&R on March

2
Pet. App. 40

Case: 18-55528, 08/25/2020, ID: 11801599, DktEntry: 46-1, Page 3 of 4

6, 2018. This court granted a certificate of appealability on the issue of “whether
appellant was deprived of due process when the [state] trial court refused to accept
appellant’s plea, including whether this claim is procedurally defaulted.”
This court reviews de novo a district court’s denial of a petition for habeas
corpus. Curiel v. Miller, 830 F.3d 864, 868 (9th Cir. 2016). “We may affirm the
district court’s decision on any ground supported by the record, even if it differs
from the district court’s rationale.” Lambert v. Blodgett, 393 F.3d. 943, 965 (9th
Cir. 2004). Petitioner asserts that the district court improperly applied 28 U.S.C.
§ 2254(d) to the merits of his Due Process claim. He further contends that the
California Court of Appeal’s finding of procedural default does not bar habeas
relief because it was not a “clear, consistently applied, and well-established”
procedural rule. See Scott v. Schriro, 567 F.3d 573, 580 (9th Cir. 2009). We need
not decide these issues, however, because Petitioner’s claim is not cognizable in
habeas.
Petitioner has failed to assert a federal constitutional violation. “It is
axiomatic that habeas relief lies only for violations of the Constitution, laws, or
treaties of the United States . . . .” Loftis v. Almager, 704 F.3d 645, 647 (9th Cir.
2012). The analysis for a Due Process violation generally proceeds in two steps:
“We first ask whether there exists a liberty or property interest of which a person
has been deprived, and if so we ask whether the procedures followed by the state

3
Pet. App. 41

Case: 18-55528, 08/25/2020, ID: 11801599, DktEntry: 46-1, Page 4 of 4

were constitutionally sufficient.” Swarthout v. Cooke, 562 U.S. 216, 219 (2011)
(citation omitted); see also Schroeder v. McDonald, 55 F.3d 454, 462 (9th Cir.
1995) (“A due process claim is cognizable only if there is a recognized liberty or
property interest at stake.”).
The Supreme Court has held that “there is no constitutional right to [a] plea
bargain.” Weatherford v. Bursey, 429 U.S. 545, 561 (1977); see Missouri v. Frye,
566 U.S. 134, 148–49 (2012) (“[A] defendant has no right to be offered a plea . . .
nor a federal right that the judge accept it.” (internal citations omitted)). Because
there is no constitutional right to having one’s plea agreement accepted, Petitioner
has failed to present a constitutional issue cognizable for habeas review. See
Loftis, 704 F.3d at 648 (finding the petitioner could not obtain habeas relief
because the state court’s failure to follow procedural rules did “not present a
constitutional issue cognizable under 28 U.S.C. § 2254”).
AFFIRMED.

4
Pet. App. 42

Case 2:13-cv-01624-JLS-LAL Document 89 Filed 09/25/18 Page 1 of 19 Page ID #:2013

FILED

UNITED STATES COURT OF APPEALS

SEP 25 2018

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

ARTURO BELTRAN,

Petitioner-Appellant,
v.

No.

18-55528

D.C. No.
2:13-cv-01624-JLS-LAL
Central District of California,
Los Angeles

MATTHEW CATE,
ORDER
Respondent-Appellee.

Before: GRABER and M. SMITH, Circuit Judges.
The request for a certificate of appealability is granted with respect to the
following issue: whether appellant was deprived of due process when the trial
court refused to accept appellant’s plea, including whether this claim is
procedurally defaulted. See 28 U.S.C. § 2253(c)(3); see also 9th Cir. R. 22-1(e).
A review of this court’s docket reflects that the filing and docketing fees for
this appeal are due. Within 21 days of the filing date of this order, appellant shall
either (1) pay to the district court the $505.00 filing and docketing fees for this
appeal and file in this court proof of such payment, or (2) file in this court a motion
to proceed in forma pauperis, accompanied by a completed Form CJA 23. Failure
to pay the fees or file a motion to proceed in forma pauperis shall result in the
automatic dismissal of the appeal by the Clerk for failure to prosecute. See 9th Cir.
R. 42-1.

Pet. App. 43

Case 2:13-cv-01624-JLS-LAL Document 89 Filed 09/25/18 Page 2 of 19 Page ID #:2014

If appellant moves to proceed in forma pauperis, appellant may
simultaneously file a motion for appointment of counsel.
The Clerk shall serve a copy of Form CJA 23 on appellant.
If appellant pays the fees, the following briefing schedule shall apply: the
opening brief is due January 23, 2019; the answering brief is due February 22,
2019; the optional reply brief is due within 21 days after service of the answering
brief. If appellant files a motion to proceed in forma pauperis, the briefing
schedule will be set upon disposition of the motion.
The Clerk shall serve on appellant a copy of the “After Opening a Case –
Pro Se Appellants” document.
If Matthew Cate is no longer the appropriate appellee in this case, counsel
for appellee shall notify this court by letter of the appropriate substitute party
within 21 days of the filing date of this order. See Fed. R. App. P. 43(c).

2

18-55528

Pet. App. 44

Case 2:13-cv-01624-JLS-LAL Document 85 Filed 03/06/18 Page 1 of 1 Page ID #:1976

1
2
3
4
5
6
UNITED STATES DISTRICT COURT

7

CENTRAL DISTRICT OF CALIFORNIA

8
9
10

ARTURO BELTRAN,

11
12
13

Case No. LACV 13-1624-JLS (LAL)
Petitioner,

JUDGMENT

v.
MATTHEW CATE, Secretary Ca Dept. of
Corrections and Rehabilitation,

14

Respondent.

15
16
17
18
19

Pursuant to the Order Accepting Report and Recommendation of United States
Magistrate Judge,
IT IS ADJUDGED that the Petition is denied and this action is dismissed with prejudice.

20
21
22
23
24

DATED: March 6, 2018

_________________________________________
HONORABLE JOSEPHINE L. STATON
UNITED STATES DISTRICT JUDGE

25
26
27
28

Pet. App. 45

Case 2:13-cv-01624-JLS-LAL Document 83 Filed 03/06/18 Page 1 of 2 Page ID #:1972

1
2
3
4
5
6
UNITED STATES DISTRICT COURT

7

CENTRAL DISTRICT OF CALIFORNIA

8
9
10

ARTURO BELTRAN,

11
12
13

Case No. LACV 13-1624-JLS (LAL)
Petitioner,

v.
MATTHEW CATE, Secretary Ca Dept. of
Corrections and Rehabilitation,

14

ORDER ACCEPTING REPORT AND
RECOMMENDATION OF UNITED
STATES MAGISTRATE JUDGE

Respondent.

15
16
17

Pursuant to 28 U.S.C. § 636, the Court has reviewed the Petition, the Magistrate Judge’s

18

Report and Recommendation, Petitioner’s Objections and the remaining record, and has made a

19

de novo determination.

20

Petitioner’s Objections lack merit for the reasons stated in the Report and

21

Recommendation. To the extent Petitioner attempts to raise new claims in his Objections, this

22

Court declines to consider these belatedly-asserted allegations. A district court has discretion,

23

but is not required, to consider evidence or claims presented for the first time in objections to a

24

report and recommendation. 1 Although Petitioner is pro se, he nevertheless had the opportunity

25

to include all of his allegations at an earlier time, but failed to do so. Moreover, Petitioner’s

26

claims are not novel claims in an unsettled area of law. 2

27
28

1 See Brown v. Roe, 279 F.3d 742, 744-45 (9th Cir. 2002).
2 See Sossa v. Diaz, 729 F.3d 1225, 1231 (9th Cir. 2013).

Pet. App. 46

Case 2:13-cv-01624-JLS-LAL Document 83 Filed 03/06/18 Page 2 of 2 Page ID #:1973

1

Also, on December 1, 2017, after the filing of the Report and Recommendation,

2

Petitioner filed a motion for an evidentiary hearing. In habeas proceedings, “an evidentiary

3

hearing is not required on issues that can be resolved by reference to the state court record.” 3

4

“[I]f the record refutes the applicant’s factual allegations or otherwise precludes habeas relief, a

5

district court is not required to hold an evidentiary hearing.” 4 Here, the Court finds Petitioner's

6

claims can be resolved by reference to the state court record and, thus, an evidentiary hearing is

7

not warranted.

8

Accordingly, IT IS ORDERED THAT:

9

1.

Petitioner’s motion for an evidentiary hearing is denied;

10

2.

The Report and Recommendation is approved and accepted;

11

3.

Judgment be entered denying the Petition and dismissing this action with

12
13

prejudice; and
4.

The Clerk serve copies of this Order on the parties.

14
15
16
17

DATED: March 6, 2018

_________________________________________
HONORABLE JOSEPHINE L. STATON
UNITED STATES DISTRICT JUDGE

18
19
20
21
22
23
24
25
26
27
28

3 Totten v. Merkle, 137 F.3d 1172, 1176 (9th Cir. 1998); see also Earp v. Ornoski, 431 F.3d 1158, 1173 (9th Cir.
2005).
4 Schriro v. Landrigan, 550 U.S. 465, 474, 127 S. Ct. 1933, 167 L. Ed. 2d 836 (2007).

2
Pet. App. 47

Case 2:13-cv-01624-JLS-LAL Document 75 Filed 08/22/17 Page 1 of 25 Page ID #:1822

1
2
3
4
5
6
UNITED STATES DISTRICT COURT

7

CENTRAL DISTRICT OF CALIFORNIA

8
9
10

ARTURO BELTRAN,

Case No. LACV 13-1624-JLS (LAL)

11
12
13
14

Petitioner,

REPORT AND RECOMMENDATION OF
UNITED STATES MAGISTRATE JUDGE

v.
MATTHEW CATE, Secretary,
Respondent.

15
16
17
18

This Report and Recommendation is submitted to the Honorable Josephine L. Staton,

19

United States District Judge, under the provisions of 28 U.S.C. § 636 and General Order 194 of

20

the United States District Court for the Central District of California.

21

I.

22

PROCEEDINGS

23

On March 7, 2013, Arturo Beltran (“Petitioner”) filed a Petition for Writ of Habeas

24

Corpus by a Person in State Custody pursuant to 28 U.S.C. § 2254 (“Petition”). On August 6,

25

2014, after the matter was fully briefed but with the Court’s permission, Petitioner filed a First

26
27
28

Pet. App. 48

Case 2:13-cv-01624-JLS-LAL Document 75 Filed 08/22/17 Page 2 of 25 Page ID #:1823

1

Amended Petition. On July 9, 2015, Respondent filed an Answer to the Petition.1 On

2

September 25, 2015, Petitioner filed a Reply. Thus, this matter is ready for decision.

3

II.

4

PROCEDURAL HISTORY

5

On April 10, 2012, Petitioner was convicted after a jury trial in the Los Angeles County

6

Superior Court of ten counts of aggravated sexual assault of a child, 2 three counts of lewd act

7

upon a child, 3 one count of continuous sexual abuse of a child under the age of 14, 4 and one

8

count of sex or sodomy with a child under the age of 10. 5 As to each count, the jury also found

9

true an allegation that multiple victims were involved in the crimes. 6 (2 Clerk’s Transcript

10

(“CT”) at 248-62, 265-70.) On December 13, 2010, the trial court sentenced Petitioner to a state

11

prison term of 130 years to life. (2 CT at 297-306.)

12

Petitioner appealed his convictions to the California Court of Appeal. (Lodgments 3-8.)

13

On June 13, 2012, the California Court of Appeal ordered modifications to Petitioner’s pretrial

14

custody credits and fine assessment, but otherwise affirmed the judgment. (Lodgment 9.)

15

Petitioner filed a Petition for Rehearing of the California Court of Appeal’s decision.

16

(Lodgment 10.) On July 12, 2012, the California Court of Appeal denied the Petition for

17

Rehearing. (Lodgment 11.)

18

Finally, Petitioner filed a petition for review in the California Supreme Court.

19

(Lodgment 12.) On September 19, 2012, the California Supreme Court denied review.

20

(Lodgment 14.)

21

///

22

///

23

///

24
25
26
27
28

1 In the intervening time, Respondent filed a Motion to Dismiss the First Amended Petition. On April 2, 2015, the
Court denied Respondent’s motion without prejudice to reconsideration after briefing on the merits of Petitioner’s
claims. This Court now addresses Petitioner’s claims on the merits.
2 Cal. Penal Code § 269(a)(1).
3 Cal. Penal Code § 288(a).
4 Cal. Penal Code § 288.5(a).
5 Cal. Penal Code § 288.7(a).
6 Cal. Penal Code § 667.61(b).

2
Pet. App. 49

Case 2:13-cv-01624-JLS-LAL Document 75 Filed 08/22/17 Page 3 of 25 Page ID #:1824

1

III.

2

SUMMARY OF THE EVIDENCE PRESENTED AT TRIAL

3

Because Petitioner is not challenging the sufficiency of the evidence, after independently

4

reviewing the record, this Court adopts the factual discussion of the California Court of Appeal

5

opinion as a fair and accurate summary of the evidence presented at trial: 7

6

Defendant’s family consisted of his wife, R.L., (mother) and five

7

children—four girls and one boy. The family shared one bedroom of a two

8

bedroom apartment in La Puente. The four daughters slept in one bed. Defendant

9

and mother slept on a mattress on the floor next to the girls’ bed. The son slept on

10

a mattress in the closet. The oldest daughter, D., was 19 at the time of trial in

11

2010; the son was 18; twin daughters, N. and G., were 11; and the youngest

12

daughter, A., was 9.

13

On one occasion, mother returned from an errand and found defendant and

14

D., who was 11 or 12 at the time, lying down in the bedroom closet where the son

15

normally slept. Mother later asked D. if defendant had touched her, but she said

16

he had not.

17

A. asked mother if defendant was her father. Mother told her that

18

defendant was her father, but A. did not believe her. A. also asked defendant,

19

who said he was her father. Later, A. said she had seen defendant touch G. and D.

20

Mother spoke to G. after hearing A.’s accusation. G. admitted defendant

21

had touched her and gestured to her crotch with her hand to indicate where she

22

had been touched. She looked as though she were going to cry.

23

Mother also spoke with D., who at first denied being touched by

24

defendant, but when pressed, admitted she had been touched but explained that

25

she did not have the courage to tell mother. Mother called her sister, who told her

26
27
28

7 “Factual determinations by state courts are presumed correct absent clear and convincing evidence to the contrary .
. . .” Miller-El v. Cockrell, 537 U.S. 322, 340, 123 S. Ct. 1029, 154 L. Ed. 2d 931 (2003) (citing 28 U.S.C. §
2254(e)(1)). Thus, Ninth Circuit cases have presumed correct the factual summary set forth in an opinion of the
California Court of Appeal under 28 U.S.C. §2254(e)(1). See, e.g., Moses v. Payne, 555 F.3d 742, 746 n.1 (9th Cir.
2009) (citations omitted); Slovik v. Yates, 556 F.3d 747, 749 n.1 (9th Cir. 2009).

3
Pet. App. 50

Case 2:13-cv-01624-JLS-LAL Document 75 Filed 08/22/17 Page 4 of 25 Page ID #:1825

1

to speak to her pastor, who in turn told her to report it to the authorities. The

2

police were contacted and D., G., and A. were interviewed.

3

Offenses Against D.

4

The molestation of D. began when she was 10 or 11 years old, when

5

defendant touched the lower portion of her legs, moving his hand up. Shortly

6

thereafter, defendant called D. into the bedroom closet. He had her pull down her

7

pants and get on her knees. Defendant pulled down his shorts and tried to put his

8

penis in her “butt.” Defendant stopped quickly when mother entered the room.

9

D. later denied to mother that anything happened in the closet, because defendant

10

had told her not to say anything.

11

Defendant placed his penis in D.’s vagina for the first time when she was

12

11 years old. He continued to have sexual intercourse with D., with varying

13

frequency, until she was 16. He had intercourse with her more than three times

14

per year when D. was between 11 and 14 years old. He always used a condom.

15

Defendant told her she would be ashamed if it was ever revealed she engaged in

16

sex with her father. He also said he would kill the family and himself. Portions

17

of some molestations of D. were observed by N. and A. When D. was 17,

18

defendant mistakenly suspected she was pregnant and had his wife take her to the

19

doctor.

20

Offenses Against G.

21

Defendant began molesting G. when she was in the third grade, by putting

22

“his front private part” in her “butt.” He did this more than one time. They

23

engaged in many acts of anal and vaginal intercourse. She described how

24

defendant cleaned her after the acts. She was afraid to tell her mother what was

25

happening. G. did go to the doctor when she was nine or ten years old, after

26

experiencing pain while urinating and blood in her urine. The doctor said she had

27

a vaginal infection with premenstrual bleeding, told her to drink more water, and

28

prescribed an ointment.

4
Pet. App. 51

Case 2:13-cv-01624-JLS-LAL Document 75 Filed 08/22/17 Page 5 of 25 Page ID #:1826

1

On one occasion N., who was then eight years old, saw defendant on top

2

of G. in the closet. When A. was also eight, she saw defendant touching G.’s

3

genital area.

4

Discovery of the Offenses and Investigation

5

The police investigation into the molestation began in September 2009,

6

after A.’s disclosure that she had seen defendant touching G. and D., and the girls’

7

admissions of the offenses. Due to the lapse in time between the last offense and

8

the reporting of the molestations, the investigating officer concluded a sexual

9

assault examination would not yield biological evidence or reveal significant

10

unhealed injuries.

11

Defense

12

Defendant denied the molestations in his testimony. Mother was jealous

13

and threatening, and she had admitted having an affair. Defendant had

14

recommended that mother take D. to the doctor when she was 17 years old.

15

(Lodgment 9 at 2-5.)

16

IV.

17

PETITIONER’S CLAIMS

18

Petitioner raises the following claims for habeas corpus relief:

19

(1) The preliminary hearing judge violated Petitioner’s right to due process by arbitrarily

20

rejecting the plea agreement;

21

(2) CALCRIM No. 318 violates due process by allowing the jury to make an irrational

22

inference that a witness’s statements are true simply because they were made;

23
24

(3) The California Court of Appeal’s holding that Petitioner forfeited Claim One is
inconsistent with the law and violated Petitioner’s right to due process;

25

(4) The trial court violated Petitioner’s rights to due process and to confront witnesses by

26

instructing the jury regarding expert witness testimony pursuant to CALCRIM No.

27

332; and

28
5
Pet. App. 52

Case 2:13-cv-01624-JLS-LAL Document 75 Filed 08/22/17 Page 6 of 25 Page ID #:1827

1

(5) The trial court violated Petitioner’s right to due process by removing a juror during

2

deliberations.

3

V.

4

STANDARD OF REVIEW

5

A.

6
7

28 U.S.C. § 2254
The standard of review that applies to Petitioner’s claims is stated in 28 U.S.C. § 2254, as

amended by the Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”):

8

(d)

9

pursuant to the judgment of a State court shall not be granted with respect to any

An application for a writ of habeas corpus on behalf of a person in custody

10

claim that was adjudicated on the merits in State court proceedings unless the

11

adjudication of the claim—

12

(1)

resulted in a decision that was contrary to, or involved an

13

unreasonable application of, clearly established Federal law, as determined by the

14

Supreme Court of the United States; or

15

(2)

resulted in a decision that was based on an unreasonable

16

determination of the facts in light of the evidence presented in

17

the State court proceeding.

18

28 U.S.C. § 2254(d). If these standards are difficult to meet, it is because they were meant to be.

19

As the United States Supreme Court stated in Harrington v. Richter, 8 while the AEDPA “stops

20

short of imposing a complete bar on federal court relitigation of claims already rejected in state

21

proceedings[,]” habeas relief may be granted only “where there is no possibility fairminded

22

jurists could disagree that the state court’s decision conflicts” with United States Supreme Court

23

precedent. Further, a state court factual determination must be presumed correct unless rebutted

24

by clear and convincing evidence. 9

25

///

26

///

27
28

8 562 U.S. 86, 131 S. Ct. 770, 786, 178 L. Ed. 2d 624 (2011).
9 28 U.S.C. § 2254(e)(1).

6
Pet. App. 53

Case 2:13-cv-01624-JLS-LAL Document 75 Filed 08/22/17 Page 7 of 25 Page ID #:1828

1
2

B.

Sources of “Clearly Established Federal Law”
According to Williams v. Taylor, 10 the law that controls federal habeas review of state

3

court decisions under the AEDPA consists of holdings (as opposed to dicta) of Supreme Court

4

decisions “as of the time of the relevant state-court decision.” To determine what, if any,

5

“clearly established” United States Supreme Court law exists, a federal habeas court also may

6

examine decisions other than those of the United States Supreme Court. 11 Ninth Circuit cases

7

“may be persuasive.” 12 A state court’s decision cannot be contrary to, or an unreasonable

8

application of, clearly established federal law, if no Supreme Court decision has provided a clear

9

holding relating to the legal issue the habeas petitioner raised in state court. 13

10

Although a particular state court decision may be both “contrary to” and an

11

“unreasonable application of” controlling Supreme Court law, the two phrases have distinct

12

meanings under Williams.

13

A state court decision is “contrary to” clearly established federal law if the decision either

14

applies a rule that contradicts the governing Supreme Court law, or reaches a result that differs

15

from the result the Supreme Court reached on “materially indistinguishable” facts. 14 If a state

16

court decision denying a claim is “contrary to” controlling Supreme Court precedent, the

17

reviewing federal habeas court is “unconstrained by § 2254(d)(1).” 15 However, the state court

18

need not cite or even be aware of the controlling Supreme Court cases, “so long as neither the

19

reasoning nor the result of the state-court decision contradicts them.” 16

20
21

State court decisions that are not “contrary to” Supreme Court law may be set aside on
federal habeas review only “if they are not merely erroneous, but ‘an unreasonable application’

22
23
24
25
26
27
28

10 529 U.S. 362, 412, 120 S. Ct. 1495, 146, L. Ed. 2d 389 (2000).
11 LaJoie v. Thompson, 217 F.3d 663, 669 n.6 (9th Cir. 2000).
12 Duhaime v. Ducharme, 200 F.3d 597, 600 (9th Cir. 1999).
13 Brewer v. Hall, 378 F.3d 952, 955 (9th Cir. 2004); see also Carey v. Musladin, 549 U.S. 70, 77, 127, S. Ct. 649,
649, 166 L. Ed. 2d 482 (2006) (in the absence of a Supreme Court holding regarding the prejudicial effect of
spectators’ courtroom conduct, the state court’s decision could not have been contrary to or an unreasonable
application of clearly established federal law).
14 Early v. Packer, 537 U.S. 3, 8, 123 S. Ct. 362, 154 L. Ed. 2d 263 (2002) (per curiam) (citing Williams, 529 U.S.
at 405-06).
15 Williams, 529 U.S. at 406.
16 Early, 537 U.S. at 8.

7
Pet. App. 54

Case 2:13-cv-01624-JLS-LAL Document 75 Filed 08/22/17 Page 8 of 25 Page ID #:1829

1

of clearly established federal law, or based on ‘an unreasonable determination of the facts.’” 17

2

Accordingly, this Court may reject a state court decision that correctly identified the applicable

3

federal rule but unreasonably applied the rule to the facts of a particular case. 18 However, to

4

obtain federal habeas relief for such an “unreasonable application,” a petitioner must show that

5

the state court’s application of Supreme Court law was “objectively unreasonable” under

6

Woodford v. Visciotti. 19 An “unreasonable application” is different from merely an incorrect

7

one. 20

8
9

Where the California Supreme Court denied a claim without comment, the state high
court’s “silent” denial is considered to be “on the merits” and to rest on the last reasoned

10

decision on the claim. Here, with respect to Claims One, Two, Four, and Five, this Court looks

11

to the grounds the California Court of Appeal stated in its decision on direct appeal. 21

12

Where, as here with respect to Claim Three, the state courts have supplied no reasoned

13

decision for denying the petitioner’s claims on the merits, this Court must perform an

14

“‘independent review of the record’ to ascertain whether the state court decision was objectively

15

unreasonable.” 22

16

VI.

17

DISCUSSION

18
19
20
21

A.

Plea Agreement
1.

Trial Court’s Rejection of Plea Agreement
a.

Background

In Claim One, Petitioner argues the preliminary hearing judge violated his right to due

22

process by arbitrarily rejecting the plea agreement the parties had accepted. (FAP at 5, 11-17.)

23

On the date set for preliminary hearing, Petitioner’s trial counsel addressed the

24
25
26
27
28

preliminary hearing judge about the prosecution’s plea offer. (1 CT at 1-4.) Trial counsel
17 Id. at 11 (citing 28 U.S.C. § 2254(d)).
18 See Williams, 529 U.S. at 406-10, 413.
19 537 U.S. 19, 27, 123 S. Ct. 357, 154 L. Ed. 2d 279 (2002).
20 Williams, 529 U.S. at 409-10.
21 See Ylst v. Nunnemaker, 501 U.S. 797, 803-06, 111 S. Ct. 2590, 115 L. Ed. 2d 706 (1991).
22 Himes v. Thompson, 336 F.3d 848, 853 (9th Cir. 2003) (citing Delgado v. Lewis, 223 F.3d 976, 981-82 (9th Cir.
2000)).

8
Pet. App. 55

Case 2:13-cv-01624-JLS-LAL Document 75 Filed 08/22/17 Page 9 of 25 Page ID #:1830

1

explained he had spent several hours discussing the current 24-year offer with Petitioner and

2

requested a continuance to allow Petitioner additional time to consider the offer. (1 CT at 4.)

3

After the prosecutor objected to any further continuances, trial counsel stated that Petitioner had

4

signed the plea form and would accept the 24-year offer. (1 CT at 7-8.)

5

The preliminary hearing judge confirmed with Petitioner that his interpreter had “read to

6

[him] the paragraphs on each of the pages with [his] constitutional rights and consequences,” and

7

that he had signed and placed his initials on the waiver of rights form. (1 CT at 11.) When the

8

judge asked Petitioner if he understood the rights and consequences as the interpreter had read

9

them, Petitioner stated, “Not all of it.” (1 CT at 11.) The judge responded, “Good. Call your

10

first witness.” (1 CT at 11.) The judge then declared that “[a]ll deals are off the table.” (1 CT at

11

11.) When Petitioner’s trial counsel asked for an opportunity to speak with Petitioner, the judge

12

stated, “We cannot do that. I’ve just torn up the waiver of rights form. I’m not going to take a

13

guilty plea from a not guilty man. Never. Call your first witness.” (1 CT at 11-12.) Petitioner’s

14

trial counsel attempted to explain that Petitioner wanted to accept the plea offer and his only

15

misunderstanding was how he was expected to pay the required restitution when he would be

16

incarcerated. (1 CT at 13-14.) The preliminary hearing judge was unmoved. He explained that

17

Petitioner “looked extremely reluctant all the way through this entire process” and on that basis

18

denied Petitioner’s motion to change his plea. (1 CT at 15.)

19
20
21
22

b.

State Court Opinion

The California Court of Appeal found Petitioner’s claim forfeited and, alternatively, that
it lacked merit, explaining as follows:
The trial court never had an opportunity to rule on the propriety of the

23

actions of the magistrate, as defendant failed to make a motion to dismiss under

24

section 995. Under these circumstances, the issue is forfeited for purposes of

25

direct appeal. “We hold that the failure to move to set aside the information (Pen.

26

Code, § 995) bars the defense from questioning on appeal any irregularity in the

27

preliminary examination (Pen. Code, § 996). We thereby follow a long line of

28

decisions in both this court and the Courts of Appeal, uniformly holding that

9
Pet. App. 56

Case 2:13-cv-01624-JLS-LAL Document 75 Filed 08/22/17 Page 10 of 25 Page ID #:1831

1

section 996 forecloses an attack on the preliminary examination in the absence of

2

a motion under section 995. [Citations.]” (People v. Harris (1967) 67 Cal.2d

3

866, 870, fn. omitted; People v. Pendergrass (1986) 182 Cal.App.3d 63, 67 [“A

4

failure to move to set aside the information in the superior court bars the defense

5

from questioning on appeal any ruling made at the preliminary hearing.”].)

6

In addition to the issue of forfeiture, defendant cannot establish prejudice,

7

as defined by our Supreme Court, from the magistrate’s decision not to complete

8

the plea. “Irregularities in pretrial commitment proceedings that are not

9

jurisdictional in the fundamental sense require reversal on appeal only where the

10

defendant shows he was deprived of due process or suffered prejudice as a result.

11

(People v. Millwee (1998) 18 Cal.4th 96, 121, citing People v. Pompa–Ortiz

12

(1980) 27 Cal.3d 519, 529.)” (People v. Lewis, supra, 39 Cal.4th at p. 990.)

13

Defendant suffered no prejudice at trial from the magistrate’s decision to

14

terminate the attempt at a guilty plea. We have determined that no error, and

15

certainly no prejudicial error, has been shown at trial. The record of post-

16

preliminary proceedings contains no suggestion that defendant expressed any

17

desire to settle his case without a trial, or that he had an actual interest in the

18

earlier offer of 24 years. Assuming some irregularity occurred at the preliminary

19

hearing—an issue we need not reach—we are satisfied that defendant has not

20

shown the irregularity to be jurisdictional.

21
22
23

(Lodgment 9 at 19.)
c.

Analysis

The Unites States Supreme Court has never held that a state court must accept a guilty

24

plea. To the contrary, the Supreme Court has said that a defendant does not have the right to

25

have a plea bargain accepted. 23 This Court is sympathetic to Petitioner’s criticism of the

26
27
28

23 Santobello v. New York, 404 U.S. 257, 261-62, 92 S. Ct. 495, 30 L. Ed. 2d 427 (1971) (“There is, of course, no
absolute right to have a guilty plea accepted.”); see also North Carolina v. Alford, 400 U.S. 25, 38 n. 11, 91 S. Ct.
160, 27 L. Ed. 2d 162 (1970) (“A criminal defendant does not have an absolute right under the Constitution to have
his guilty plea accepted by the court . . . .”).

10
Pet. App. 57

Case 2:13-cv-01624-JLS-LAL Document 75 Filed 08/22/17 Page 11 of 25 Page ID #:1832

1

preliminary hearing judge’s abrupt rejection of the plea agreement. However, in the absence of

2

clearly established federal law supporting Petitioner’s claim, he is not entitled to federal habeas

3

relief. 24

4

Accordingly, this Court finds that the California courts’ denial of Petitioner’s claim was

5

neither contrary to, nor involved an unreasonable application of, clearly established federal law

6

as determined by the United States Supreme Court. Habeas relief is not warranted on Claim

7

One.

8

2.

9

In Claim Three, Petitioner argues the California Court of Appeal’s finding that

10

Petitioner’s claim was forfeited is inconsistent with the law and violated his right to due process.

11

(FAP at 5-6, 24-30.) As explained above, the California Court of Appeal denied Petitioner’s

12

claim, in part, because Petitioner forfeited the claim under California law by failing to move to

13

set aside the information. (Lodgment 9 at 19.) The California Court of Appeal based its finding

14

strictly on state law and thus, this Court must defer to that decision. 25

Appellate Court Ruling

15

Accordingly, this Court finds that the California courts’ denial of Petitioner’s claim was

16

neither contrary to, nor involved an unreasonable application of, clearly established federal law

17

as determined by the United States Supreme Court. Habeas relief is not warranted on Claim

18

Three.

19

B.

20
21
22

Instructional Error
1.

CALCRIM No. 318
a.

Background

In Claim Two, Petitioner argues California’s CALCRIM No. 318, which advises the jury

23

about the consideration of a witness’s prior statements, violates due process “by allowing the

24

jury to make an irrational inference that a witness’s statements are true simply because they were

25

made.” (FAP at 5, 20-24.)

26
27
28

24 Brewer v. Hall, 378 F.3d 952, 955 (9th Cir. 2004); see also Carey v. Musladin, 549 U.S. 70, 77, 127, S. Ct. 649,
649, 166 L. Ed. 2d 482 (2006).
25 Bradshaw v. Richey, 546 U.S. 74, 76, 126 S. Ct. 602, 163 L. Ed. 2d 407 (2005) (“a state court's interpretation of
state law, including one announced on direct appeal of the challenged conviction, binds a federal court sitting in
habeas corpus”).

11
Pet. App. 58

Case 2:13-cv-01624-JLS-LAL Document 75 Filed 08/22/17 Page 12 of 25 Page ID #:1833

1
2

At the close of trial, the trial court instructed the jury with CALCRIM No. 318, as
follows:

3

You have heard evidence of statements that a witness made before the

4

trial. If you decide that the witness made those statements, you may consider

5

those statements in two ways:

6

1. To evaluate whether the witness’s testimony in court is believable;

7

2. As evidence that the information in those earlier statements is true.

8
9
10

(5 RT at 1340; 2 CT at 226.)
b.

State Court Opinion

The California Court of Appeal denied Petitioner’s claim, finding:

11

There is nothing in the permissive language of the instruction to support

12

the interpretation suggested by defendant, nor does the instruction undercut the

13

other instructions requiring the prosecution to prove guilt beyond a reasonable

14

doubt. As defendant acknowledges, his argument was rejected in People v.

15

Hudson (2009) 175 Cal.App.4th 1025, 1028-1029. We agree with the holding in

16

Hudson and reject the contention.

17
18
19

(Lodgment 9 at 14.)
c.

Legal Standard

The State may not use evidentiary presumptions in a jury charge which have the effect of

20

relieving the prosecution of its burden to prove every essential element of the crime beyond a

21

reasonable doubt. 26 However, “[b]ecause [a] permissive presumption leaves the trier of fact free

22

to credit or reject the inference and does not shift the burden of proof, it affects the application of

23

the ‘beyond a reasonable doubt’ standard only if, under the facts of the case, there is no rational

24

way the trier could make the connection permitted by the inference.” 27

25
26
27
28

Challenged instructions must be evaluated in the context of other instructions and the trial
record as a whole, not in artificial isolation. 28 Even if an instruction is ambiguous, a petitioner
26 See Francis v. Franklin, 471 U.S. 307, 313, 105 S. Ct. 1965, 85 L. Ed. 2d 344 (1985) (citations omitted).
27 County Court of Ulster County, New York v. Allen, 442 U.S. 140, 157, 99 S. Ct. 2213, 60 L. Ed. 2d 777 (1979).
28 See Waddington v. Sarausad, 555 U.S. 179, 190-91, 129 S. Ct. 823, 172 L. Ed. 2d 532 (2009) (citation omitted).

12
Pet. App. 59

Case 2:13-cv-01624-JLS-LAL Document 75 Filed 08/22/17 Page 13 of 25 Page ID #:1834

1

carries the burden of showing a reasonable likelihood the jury applied the challenged instruction

2

in way that relieved the State of its burden of proving every element of the crime beyond a

3

reasonable doubt. 29

4

d.

5

Analysis

CALCRIM No. 318 does not create an improper evidentiary presumption. The

6

instruction is worded in neutral terms and does not require a jury to infer that a witness's out-of-

7

court statements are true or that they are more believable than statements made at trial. The

8

instruction merely advised the jury that it may use out-of-court statements in assessing the

9

credibility of a witness's in-court testimony and it may use the statements as evidence of the truth

10

of those statements.

11

Further, to the extent this instruction is at all ambiguous, when considered in light of the

12

other instructions given, there is no reasonable likelihood that the jury applied this instruction in

13

a manner that violates the Constitution. The trial court also instructed the jury with CALCRIM

14

No. 220, which explained the jury’s duty to “impartially compare and consider all the evidence

15

that was received throughout the entire trial,” (2 CT at 215), and CALCRIM No. 226, which

16

instructed that “among the factors the jury could consider in evaluating a witness's credibility

17

was, ‘Did the witness make a statement in the past that is consistent or inconsistent with his or

18

her testimony?’” (2 CT at 220-21.) Reading CALCRIM No. 318 in context of these other

19

instructions, there is no reasonable likelihood that the instruction violated petitioner's right to due

20

process.

21

Accordingly, this Court finds that the California courts’ denial of Petitioner’s claim was

22

neither contrary to, nor involved an unreasonable application of, clearly established federal law

23

as determined by the United States Supreme Court. Habeas relief is not warranted on Claim

24

Two.

25

///

26

///

27

///

28

29 Id.

13
Pet. App. 60

Case 2:13-cv-01624-JLS-LAL Document 75 Filed 08/22/17 Page 14 of 25 Page ID #:1835

1
2
3

2.

CALCRIM No. 332
a.

Background

In Claim Four, Petitioner argues the trial court violated his rights to due process and to

4

confront witnesses by instructing the jury regarding expert witnesses pursuant to CALCRIM No.

5

332. 30 Specifically, Petitioner argues it was improper for the trial court to issue this instruction

6

with respect to the testimony of Los Angeles County Sheriff’s Detective Terrance Smith because

7

the detective was not an expert. (FAP at 6, 31-33.)

8
9

Detective Terrance Smith testified at trial that he had spent three of his 19 years as a
police officer assigned to the Special Victims Bureau, which investigates, among other things,

10

sexual assaults against children. (5 RT at 1204, 1221.) Detective Smith testified that he did not

11

have a sexual assault nurse examine the victims in this case because “in [his] opinion, a sexual

12

assault exam would have been more intrusive to [the] victim than productive since so much time

13

elapsed.” (5 RT at 1210-11.) He explained that the likelihood of obtaining biological evidence

14

from the victims was very small or nonexistent due to the amount of time that had passed since

15

the commission of the crimes. (5 RT at 1211.)

16

On cross-examination, Petitioner’s trial counsel asked if it was possible for a sexual

17

assault examination to reveal “old scar tissue of old injuries.” (5 RT at 1231.) Detective Smith

18

explained, “I’m sure that has been done. It’s not a practice of mine. In my opinion, based on my

19

training and experience, those areas heal fairly quickly unless there is some type of significant

20

damage.” (5 RT at 1231.)

21

At the end of trial, the prosecution requested the trial court instruct the jury on the

22

consideration of expert witness testimony pursuant to CALCRIM No. 332, arguing “to some

23

degree, Detective Smith proffered his expertise on certain issues relative to sexual assault

24
25
26
27
28

30 Although Petitioner asserts that his claim is based, in part, on his right to confront witnesses, he provides no
argument on the alleged confrontation violation. Such a conclusory allegation is not sufficient to warrant federal
habeas relief. See Jones v. Gomez, 66 F.3d 199, 204 (9th Cir. 1995) (rejecting claim regarding alleged failure to
disclose exculpatory evidence where the petitioner's claim was argued in a single page, “[w]ithout reference to the
record or any document”); James v. Borg, 24 F.3d 20, 26 (9th Cir. 1994) (conclusory allegations not supported by
specific facts in petition do not warrant habeas relief).

14
Pet. App. 61

Case 2:13-cv-01624-JLS-LAL Document 75 Filed 08/22/17 Page 15 of 25 Page ID #:1836

1

investigations.” (5 RT at 1314.) The trial court agreed to issue the instruction over defense

2

objection. (5 RT at 1314-16.)

3

The trial court instructed the jury pursuant to CALCRIM No. 332, stating:

4

A witness was allowed to testify as an expert and to give an opinion. You

5

must consider the opinion, but you are not required to accept it as true or correct.

6

The meaning and importance of any opinion are for you to decide. In evaluating

7

the believability of an expert witness, follow the instructions about the

8

believability of witnesses generally. In addition, consider the expert’s knowledge,

9

skill, experience, training, and education, the reasons the expert gave for any

10

opinion, and the facts or information on which the expert relied in reaching that

11

opinion. You must decide whether information on which the expert relied was

12

true and accurate. You may disregard any opinion that you find unbelievable,

13

unreasonable, or unsupported by the evidence.

14
15
16
17

(2 CT at 228.)
b.

State Court Opinion

The California Court of Appeal denied Petitioner’s claim, as follows:
We review the trial court’s determination that a witness was a qualified

18

expert under the deferential abuse of discretion standard, reversing only when the

19

witness clearly lacks qualifications as an expert. (People v. Wallace (2008) 44

20

Cal.4th 1032, 1062-1063; People v. Chavez (1985) 39 Cal.3d 823, 828.) When

21

expert testimony is admitted, the trial court has a sua sponte duty to instruct

22

substantially as follows: “Duly qualified experts may give their opinions on

23

questions in controversy at a trial. To assist the jury in deciding such questions,

24

the jury may consider the opinion with the reasons stated therefor, if any, by the

25

expert who gives the opinion. The jury is not bound to accept the opinion of any

26

expert as conclusive, but should give to it the weight to which they shall find it to

27

be entitled. The jury may, however, disregard any such opinion, if it shall be

28
15
Pet. App. 62

Case 2:13-cv-01624-JLS-LAL Document 75 Filed 08/22/17 Page 16 of 25 Page ID #:1837

1

found by them to be unreasonable. [¶] No further instruction on the subject of

2

opinion evidence need be given.” (§1127b.)

3

“‘The jury need not be wholly ignorant of the subject matter of the opinion

4

in order to justify its admission; if that were the test, little expert opinion

5

testimony would ever be heard. Instead, the statute declares that even if the jury

6

has some knowledge of the matter, expert opinion may be admitted whenever it

7

would “assist” the jury. It will be excluded only when it would add nothing at all

8

to the jury’s common fund of information, i.e., when “the subject of inquiry is one

9

of such common knowledge that men of ordinary education could reach a

10

conclusion as intelligently as the witness”’ (People v. McDonald (1984) 37 Cal.3d

11

351, 367).” (People v. McAlpin (1991) 53 Cal.3d 1289, 1299-1300 (McAlpin)

12

[upholding ruling admitting officer’s testimony that it is not unusual for a parent

13

to refrain from reporting a known molestation of his or her child to refute

14

inference that parent did not believe child’s complaint of molestation].)

15

The discussion in McAlpin is instructive. “Most jurors, fortunately, have

16

been spared the experience of being the parent of a sexually molested child.

17

Lacking that experience, jurors can rely only on their intuition or on relevant

18

evidence introduced at trial. It is reasonable to conclude that on the basis of their

19

intuition alone many jurors would tend to believe that a parent of a molested

20

child, naturally concerned for the welfare of the child and of other children, would

21

promptly report the crime to the authorities, just as a parent would be likely to do

22

if the child complained of someone who had beaten him or stolen his pocket

23

money. Yet here the prosecution had evidence to the contrary—the expert opinion

24

of Officer Miller that in fact it is not at all unusual for a parent to refrain from

25

reporting a known child molestation, for a number of reasons. Such evidence

26

would therefore ‘assist the trier of fact’ (Evid. Code, § 801, subd. (a)) by giving

27

the jurors information they needed to objectively evaluate Anita’s credibility.”

28

(McAlpin, supra, 53 Cal.3d at p. 1302, fn. omitted.)

16
Pet. App. 63

Case 2:13-cv-01624-JLS-LAL Document 75 Filed 08/22/17 Page 17 of 25 Page ID #:1838

1

Jurors here heard of evidence of molestations but no testimony regarding

2

physical injury or scientific evidence, such as DNA or blood typing. In order to

3

explain the absence of medical or biological evidence, Detective Smith, relying

4

on his experience of a peace officer and investigator in the Special Victims

5

Bureau, explained that due to the passage of time between the acts and the

6

reporting, he did not expect a sexual assault examination to reveal biological

7

evidence or evidence of injury. The trial court could reasonably determine that

8

Detective Smith’s testimony would assist the jury in determining whether to

9

discount the victims’ testimony due to the lack of corroborating medical or

10

scientific evidence. The court therefore properly instructed the jury on

11

consideration of expert testimony.

12

Rejection of the claim on the merits under state law “necessarily leads to

13

rejection” of the constitutional “‘gloss’” defendant attaches to the argument.

14

(People v. Lewis (2006) 39 Cal.4th 970, 990, fn. 5 (Lewis).) “No separate

15

constitutional discussion is required in such cases, and we therefore provide

16

none.” (Ibid.)

17

Moreover, any error was plainly nonprejudicial under both the state and

18

federal Constitutions. Defendant cannot point to any portion of the prosecutor’s

19

argument to the jury in which the challenged instruction was mentioned or

20

Detective Smith was described as an expert. The prosecution case was strong,

21

and its witnesses consistent in describing the pattern of conduct engaged in by

22

defendant. (People v. Watson (1956) 46 Cal.2d 818, 836; Chapman v. California

23

(1967) 386 U.S. 18, 24.) We are satisfied the instruction played no role in

24

defendant’s trial.

25
26
27
28

(Lodgment 9 at 11-13.)
c.

Analysis

To merit relief in a federal habeas action, a petitioner must demonstrate that “‘the ailing
instruction by itself so infected the entire trial that the resulting conviction violates due process' .

17
Pet. App. 64

Case 2:13-cv-01624-JLS-LAL Document 75 Filed 08/22/17 Page 18 of 25 Page ID #:1839

1

. . not merely [that] ‘the instruction is undesirable, erroneous, or even universally

2

condemned.’” 31

3

Whether a witness at a state court trial qualifies as an expert witness under the state’s

4

rules of evidence is a question of state law only. Here, the California Court of Appeal held that

5

the trial court did not err under state law by finding Detective Smith qualified as an expert

6

witness. This Court must defer to the state court’s interpretation of this state law issue. 32

7

Because the trial court properly found Detective Smith qualified as an expert witness, it was

8

appropriate for the trial court to issue the expert witness instruction. Thus, the instruction could

9

not have rendered Petitioner’s trial so fundamentally unfair as to violate due process.

10

Accordingly, this Court finds that the California courts’ denial of Petitioner’s claim was

11

neither contrary to, nor involved an unreasonable application of, clearly established federal law

12

as determined by the United States Supreme Court. Habeas relief is not warranted on Claim

13

Four.

14

C.

Removal of Juror

15

1.

16

Finally, in Claim Five, Petitioner argues the trial court violated his right to due process

17
18

Background

when it excused a juror during deliberations. (FAP at 6, 33-36.) 33
During jury selection, the trial court read to the prospective jurors the nature of the

19

charges pending against Petitioner. (2 RT at 16-22.) The trial court then informed the

20

prospective jurors of their obligation to give accurate and truthful answers to questions during

21

jury selection, and explained that the parties would be probing the prospective jurors’

22

backgrounds for evidence of bias. (2 RT at 6.) The court explained that some of the questions

23

may require the prospective jurors to “disclose information that you would otherwise like to keep

24
25
26
27
28

31 Henderson v. Kibbe, 431 U.S. 145, 154, 97 S. Ct. 1730, 52 L. Ed. 2d 203 (1977) (quoting Cupp v. Naughten, 414
U.S. 141, 146-47, 94 S. Ct. 396, 38 L. Ed. 2d 368 (1973) (internal quotation marks omitted)).
32 Bradshaw v. Richey, 546 U.S. 74, 76, 126 S. Ct. 602, 163 L. Ed. 2d 407 (2005) (“a state court's interpretation of
state law, including one announced on direct appeal of the challenged conviction, binds a federal court sitting in
habeas corpus”).
33 Petitioner states his claim as one of due process. However, in exhausting his claim before the California
Supreme Court he based his federal constitutional argument on the Sixth Amendment. (Lodgment 12 at 35.)
Because a defendant’s right to an impartial jury is protected by the Sixth Amendment, this Court analyzes
Petitioner’s claim under this framework.

18
Pet. App. 65

Case 2:13-cv-01624-JLS-LAL Document 75 Filed 08/22/17 Page 19 of 25 Page ID #:1840

1

private.” (2 RT at 7.) The court then gave the prospective jurors an example of the type of

2

information the parties would expect the jurors to provide during jury selection, stating, “A

3

routine question that all courts must ask and inquire of jurors is whether or not you yourself or

4

anyone close to you have been arrested or charged with a crime or even brought to trial.” (2 RT

5

at 8.)

6

Although the trial transcript does not contain an entire record of the jury selection

7

process, the parties do not dispute the trial court’s assertion that the jurors were asked whether

8

they or anyone close to them have been affected by conduct similar to the allegations at trial and

9

whether anything about the nature of the charges would prevent them from being fair. (6 RT at

10

2121-22.) Neither do the parties dispute the fact that Juror No. 10 did not disclose during jury

11

selection his past experience with having been falsely accused of sexual assault.

12

During deliberations, the jury sent a note to the trial court, which read:

13
14

It has been brought to our attention that Juror # 10 was previously accused
of rape.

15

He’s having a hard time and some of the jurors think he might be biased.

16

We’re asking for help in determining w[h]e[]ther he should remain on the

17

jury.

18

(2 CT at 189; 5 RT at 1815-16; 6 RT at 2101-02, 2113.) At the bottom of the note was an

19

additional message, reading: “I Juror # 10 would like to speak to the judge about this issue.” (2

20

CT at 189; 5 RT at 1816; 6 RT at 2102.)

21

On the next court day, the trial court conducted a hearing into the allegations regarding

22

Juror No. 10. The trial court questioned Juror No. 10 outside the presence of the jury. The juror

23

admitted that when he was 14 or 15 years old, a girl told school officials that the juror and his

24

friends raped her. (6 RT at 2108.) The school’s dean spoke to the boys and “kicked [them] out

25

of school for a few days.” (6 RT at 2108.) Eventually, the girl “admitted that she made up this

26

story.” (6 RT at 2108.)

27
28

The trial court inquired as to why Juror No. 10 did not disclose this information during
jury selection. (6 RT at 2109.) The juror explained it did not occur to him to disclose the

19
Pet. App. 66

Case 2:13-cv-01624-JLS-LAL Document 75 Filed 08/22/17 Page 20 of 25 Page ID #:1841

1

incident because it had never affected him in any way before the trial. (6 RT at 2109.) The juror

2

also stated he did not recall the incident during jury selection. (6 RT at 2110.) The trial court

3

asked Juror No. 10 if he had set aside the experience completely, and the juror answered, “I don’t

4

know. I don’t know.” (6 RT at 2110-11.) Juror No. 10 admitted, however, that his personal

5

experience had affected his deliberations. (6 RT at 2111.) The trial court asked, “If I were to

6

instruct you -- well, quite frankly order you to follow the law and set aside that entire experience

7

and not allow it to influence your decision in any way, would you be able to comply with the

8

court’s order?” (6 RT at 2111.) Juror No. 10 responded, “I believe so.” (6 RT at 2111.) The

9

court noted that Juror No. 10 “paused for approximately five or eight seconds before answering

10

that question,” and asked if the juror was uncertain about anything. (6 RT at 2111.) Juror No.

11

10 explained:

12

Well, the thing -- see, I don’t think it affected me. I don’t think I’m

13

personally biased by it but when somebody else brought it up to me that I may be

14

biased because of that, that’s why I want you guys to decide whether I should or

15

shouldn’t be. I don’t want it to be necessarily my decision . . .

16

(6 RT at 2111.) The juror stated that he had been participating in deliberations, discussing the

17

evidence, doing his best to determine the facts of the case, and listening to the other jurors’

18

positions, and that, other than the one incident from his past, he had no other concerns about

19

serving as a juror. (6 RT at 2112.)

20

The trial court then questioned the jury foreperson. The foreperson explained to the court

21

that Juror No. 10 revealed the incident from his past during the jury’s discussion of the case and

22

that Juror No. 10 told the other jurors he was basing his evaluation of the evidence on his past

23

experience. (6 RT at 2114.) The foreperson stated that all the other jurors felt Juror No. 10 was

24

biased. (6 RT at 2114-15.) The foreperson also explained that Juror No. 10 appeared to have

25

stopped participating in deliberations:

26
27

I feel he has not been taking notes. He has not been following our outlines
and he has not been following what everyone -- or participating at a level to

28
20
Pet. App. 67

Case 2:13-cv-01624-JLS-LAL Document 75 Filed 08/22/17 Page 21 of 25 Page ID #:1842

1

understand what has been going on on a chronological line. That’s what we’re

2

trying to develop now.

3

...

4

His demeanor is that he is not following with us and he is in the room but

5

he is not participating. As you said, he resists any question that we try to help

6

him or pursue him to engage. He will not. He refuses.

7

...

8

I’m not a doctor but I really feel that he has had a really extreme,

9

traumatic event that he has told us that really affected him and he’s showing it. I

10

think he has -- how do you call it? He has mental issues over this, psychological

11

issues.

12

(6 RT at 2115-16.)

13

The trial court then heard arguments from the parties before deciding to excuse the juror

14

based on the trial court’s finding that he deliberately withheld information during jury selection

15

regarding his past experience, spoke of the incident during deliberations in violation of the trial

16

court’s instruction not to discuss extraneous information, and appeared to be biased. (6 RT at

17

2117-22.)

18

2.

19

The California Court of Appeal denied Petitioner’s claim on direct appeal, as follows:

20

The trial court made two findings in removing Juror No. 10. First, the

State Court Opinion

21

court found Juror No. 10 had deliberately failed to disclose that he had been

22

falsely accused of a sexual assault. Second, the juror demonstrated bias by raising

23

that prior incident during deliberations. We conclude both finding satisfy the

24

demonstrable reality standard for removal of a juror during deliberations.

25

The trial court created a record of remarkable clarity for purposes of

26

review of this sensitive issue. The court articulated the contents of the jury

27

communications and conducted a full, on-the-record examination of Juror No. 10

28

and the foreperson. The court allowed the prosecutor and defense counsel to

21
Pet. App. 68

Case 2:13-cv-01624-JLS-LAL Document 75 Filed 08/22/17 Page 22 of 25 Page ID #:1843

1

make extensive arguments regarding whether Juror No. 10 should be removed.

2

The court’s ruling unambiguously set forth its reasoning and conclusion. We are

3

satisfied this is the type of record envisioned by our Supreme Court in adopting

4

the demonstrable reality standard for removal of a juror.

5

The trial court noted in its ruling that the jurors had been asked during voir

6

dire whether they or anyone close to them had “been arrested, accused, charged,

7

or brought to trial.” It is undisputed that Juror No. 10 made no mention during

8

jury selection that he had been the victim of a false accusation of rape. During the

9

court’s investigation of the issue of juror bias, Juror No. 10 admitted he had been

10

falsely accused of rape. When asked if he misunderstood the court’s inquiry

11

during voir dire, Juror No. 10 said it did not occur to him to reveal the incident,

12

and he did not recall it during questioning. He did bring up the accusation during

13

deliberations.

14

We agree with the trial court’s rejection of Juror No. 10’s explanation for

15

not mentioning the accusation against him during voir dire. The issue of prior

16

accusations was directly presented to the prospective jurors. Juror No. 10 had

17

been falsely accused or rape, yet he remained silent on the subject. The court’s

18

conclusion that this constituted misconduct is supported by facts in the record

19

which satisfy the demonstrable reality standard.

20

Intentional concealment of material information by a juror may justify

21

removal, although juror removal may not be based on mere inadvertent or

22

unintentional failures to disclose information. (People v. Wilson (2008) 44

23

Cal.4th 758, 823 (Wilson); People v. McPeters (1992) 2 Cal.4th 1148, 1175.)

24

Where, however, a potential juror is not questioned on a topic, there is no

25

concealment of information justifying removal of the juror. (Wilson, supra, at p.

26

823.) Juror No. 10 was directly asked in jury selection if he or anyone close to

27

him had been accused of a crime, or affected by conduct similar to that involved

28

in the case. Juror No. 10 heard the questions but did not reveal his own similar

22
Pet. App. 69

Case 2:13-cv-01624-JLS-LAL Document 75 Filed 08/22/17 Page 23 of 25 Page ID #:1844

1

experience. The trial court witnessed the juror during jury selection and heard the

2

improbable explanation for the juror’s conduct when the issue of misconduct

3

arose. Based on the direct questions asked in the selection process and the juror’s

4

lack of a reasonable response, the court’s finding of deliberate concealment of

5

material information is established as a demonstrable reality.

6

The trial court further found that Juror No. 10 was biased. “A juror who is

7

actually biased is unable to perform the duty to fairly deliberate and thus is

8

subject to discharge. (People v. Ayala (2000) 24 Cal.4th 243, 272 [(Ayala)];

9

People v. Nesler (1997) 16 Cal.4th 561, 581 [(Nesler)] (lead opn.).)” (Barnwell,

10

supra, 41 Cal.4th at p. 1051.) “Bias may be established by the testimony of other

11

jurors. (Ayala, at p. 272; Nesler, at p. 581.)” (Barnwell, supra, at p. 1051.)

12

The trial court properly found a demonstrable reality of bias on the part of

13

Juror No. 10. The juror failed to disclose the false accusation against him, despite

14

the direct questions of the court. Once deliberations began, Juror No. 10 brought

15

up his experience, and he admitted to the court it had affected his deliberations.

16

Although the juror was not convinced he was biased, he told the court other jurors

17

believed he was, and he wanted “you guys” to decide if he should be on the case.

18

The foreperson confirmed Juror No. 10 brought up the prior incident, and Juror

19

No. 10 stated he was relying upon it in evaluating the evidence. According to the

20

foreperson, all the other jurors believed Juror No. 10 was biased, and the juror

21

was not deliberating.

22

The trial court reasoned that Juror No. 10’s bias was established by his

23

reference during deliberations to the juror’s experience as the victim of a false

24

sexual assault allegation. The court ruled that removal of Juror No. 10 was

25

necessary to ensure that both sides of the case received a fair trial by an impartial

26

jury. The court’s ruling, clearly articulating an express finding of bias, is more

27

compelling than the implied finding of bias deemed sufficient to justify removal

28

of a juror in Barnwell. (See Barnwell, supra, 41 Cal.4th at p. 1053 [upholding

23
Pet. App. 70

Case 2:13-cv-01624-JLS-LAL Document 75 Filed 08/22/17 Page 24 of 25 Page ID #:1845

1

removal of juror under demonstrable reality test due to jurors general “‘disbelief

2

of police officers’ testimony,’” although the trial court did not expressly reject

3

juror’s disclaimer of bias against officers’ testimony].)

4

(Lodgment 9 at 8-11 (footnote omitted).)

5

3.

6

The Sixth Amendment guarantees a trial by an impartial jury comprised of “indifferent”

Legal Standard

7

jurors. 34 A juror is considered impartial under the Sixth Amendment if the juror can set aside

8

any opinion he or she might hold and decide the case solely on the evidence presented at trial. 35

9

The trial judge must exclude potential jurors who are unable to set aside preconceptions and to

10

decide the case on the evidence presented in court. 36

11

“One important mechanism for ensuring impartiality is voir dire, which enables the

12

parties to probe potential jurors for prejudice. For voir dire to function, jurors must answer

13

questions truthfully.” 37 A juror demonstrates bias by failing “to answer honestly a material

14

question on voir dire” that, answered honestly, “would have provided a valid basis for a

15

challenge for cause.” 38

16

Further, it is well-settled law that jurors have a duty to deliberate with the objective of

17

reaching a verdict. 39 A juror's refusal to deliberate constitutes “good cause” to discharge that

18

juror. 40

19
20

Finally, on habeas review, the state court's findings regarding a juror's fitness to serve on
the jury are entitled to “special deference.” 41

21
22
23
24
25
26
27
28

34 Irvin v. Dowd, 366 U.S. 717, 722, 81 S. Ct. 1639, 6 L. Ed. 2d 751 (1961); Dyer v. Calderon, 151 F.3d 970, 973
(9th Cir. 1998).
35 Smith v. Phillips, 455 U.S. 209, 217, 102 S. Ct. 940, 71 L. Ed. 2d 78 (1982).
36 Irvin, 366 U.S. at 722-23; see also Williams v. Johnson, 840 F.3d 1006, 1010 (9th Cir. 2016) (“[W]e know that
biased jurors may be dismissed from deliberations without offending the Constitution . . . .”).
37 Dyer, 151 F.3d at 973; see also McDonough Power Equipment, Inc. v. Greenwood, 464 U.S. 548, 554, 104 S. Ct.
845, 78 L. Ed. 2d 663 (1984) (“Voir dire examination serves to protect [juror impartiality] by exposing possible
biases, both known and unknown, on the part of the potential jurors.”).
38 McDonough, 464 U.S. at 556.
39 See Allen v. United States, 164 U.S. 492, 501, 17 S. Ct. 154, 41 L. Ed. 528 (1896).
40 Williams v. Cavazos, 646 F.3d 626, 648 (9th Cir. 2011), rev'd on other grounds by Johnson v. Williams, 568 U.S.
289, 133 S. Ct. 1088, 185 L. Ed. 2d 105 (2013); see also People v. Cleveland, 25 Cal.4th 466, 473-75, 484 (2001)
(holding that, under California law, there is “good cause” to remove a juror where it is a “demonstrable reality that
the juror is unable or unwilling to deliberate.” (internal quotations omitted)).

24
Pet. App. 71

Case 2:13-cv-01624-JLS-LAL Document 75 Filed 08/22/17 Page 25 of 25 Page ID #:1846

1

4.

2

Here, the record supports the trial court’s decision to remove Juror No. 10 from

3

deliberations because he was biased and refused to deliberate. Petitioner's defense was that he

4

had been falsely accused of sexually assault. Therefore, Juror No. 10’s past experience of being

5

falsely accused of sexual assault was of great importance to his ability to be an unbiased juror.

6

The parties do not dispute that Juror No. 10 never disclosed during voir dire his past experience.

7

Thus, the state court's finding that Juror No. 10 had intentionally concealed information that

8

demonstrated a bias was reasonable. Moreover, although Juror No. 10 stated he was

9

participating in deliberations, the foreperson gave specific examples of how Juror No. 10 was

Analysis

10

refusing to cooperate and failing in his duty to deliberate with the other jurors. Under these

11

circumstances, the removal of a juror for adequate cause does not run afoul of the Sixth

12

Amendment. 42

13

VII.

14

RECOMMENDATION

15

IT THEREFORE IS RECOMMENDED that the District Court issue an Order: (1)

16

approving and accepting this Report and Recommendation; and (2) directing that Judgment be

17

entered denying the Petition and dismissing this action with prejudice.

18
19
20

DATED: ________________________
August 22, 2017

_____________
_____
___
_ _____________
____________________________________
ONORABL
BLE LO
BL
OU
UIISE A
HONORABLE
LOUISE
A. LA M
MOTHE
United States Magistrate Judge

21
22
23
24
25
26
27
28

41 Perez v. Marshall, 119 F.3d 1422, 1426 (9th Cir. 1997) (citing Patton v. Yount, 467 U.S. 1025, 1036-38 & n.12,
104 S. Ct. 2885, 81 L. Ed. 2d 847 (1984)); see also Tinsley v. Borg, 895 F.2d 520, 525 (9th Cir. 1990) (holding that
trial court determinations “on juror impartiality deserve a high measure of deference” (internal quotation marks
omitted)).
42 See, e.g., Olea v. Warden, 2015 WL 902841, at *15-18 (N.D. Cal. Mar. 2, 2015) (finding no Sixth Amendment
violation for court's removal of “lone holdout juror” where juror “lied in voir dire, and concealed material
information”); Roberts v. Virga, 2014 WL 657572, at *14 (C.D. Cal. Feb. 19, 2014) (removal of juror during
deliberations did not violate the Constitution because juror was biased and was unable to impartially deliberate); see
also Bell v. Uribe, 748 F.3d 857, 869 (9th Cir. 2014) (“The Sixth Amendment does not entitle a defendant to the
retention of a biased juror.”).

25
Pet. App. 72

Lodged Doc. No. 14
CV 13-1624-JLS (JEM)

@■/

Court of Appeal, Second Appellate District, Division Five - No. B229725 I DOCKETED I
I LOS ANGELES I
j

S204281

I

IN THE SUPREME COURT OF CALIFORNIA
En Banc
TFIE PEOPLE, Plaintiff and Respondent,
LODGED
Ct EDK, U.S. DISTRICT COURT

v.

■ OCT - 2 2013 1

ARTURO BELTRAN, Defendant and Appellant.

——

■44

! or- '

The petition for review is denied.
SUPREME COURT

IF SLED
SEP 19 2012
Frank A. McGuire Clerk

Deputy
I

CAffllL-SAKAUYE
ChiefJustice

Pet. App. 73

Lodged Doc. No. 9
CV 13-1624-JLS (JEM)

NOT TO BE PUBLISHED IN THE OFFICIAL REPORTS
California Rules of Court’ rule 8.1115(a), prohiblts^courts and parties from^clting or relying on opinions not certified for
1115(b).
This opinion has not been
certified for publication
or ordered published for purposes of rule 8.1 fTs.
__________
P
_______________
'

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA

SECOND APPELLATE DISTRICT
DIVISION FIVE

Cl FRK, 11 c.

; PICT CO! nr

U... ..
? M3

THE PEOPLE,

B229725
i __

Plaintiff and Respondent,

(Los Angeles County Super. Ct.
No. KA088180)

v.
ARTURO BELTRAN,

Defendant and Appellant.

COURT OF APPEAL - SECOND DIST.

IFUILE ©
JUN 1 3 2012
JOSEPH A. LANE

Clerk

Deputy Clerk

APPEAL from a judgment of the Superior Court of Los Angeles County, Mike

Camacho, Judge. Affirmed as modified.
Victoria H. Stafford, under appointment by the Court of Appeal, for Defendant

and Appellant.
Kamala D. Harris, Attorney General, Dane R. Gillette, Chief Assistant Attorney
General, Lance E. Winters, Assistant Attorney General, Linda C. Johnson and Gary A.

Lieberman, Deputy Attorneys General, for Plaintiff and Respondent.

Pet. App. 74

Defendant and appellant Arturo Beltran was convicted by jury in counts 1-2 of

committing lewd acts upon G.B., a child under the age of 14 (Pen. Code, § 288,
subd. (a)).1 In count 4, he was convicted of the same offense against D.B. In count 3,

defendant was convicted of sodomy of G., a child under the age of 10 (§ 288.7). In
count 5, defendant was convicted of continuous sexual abuse of D. (§ 288.5.) In count 6,

as to G., and counts 7-15, as to D., defendant was found guilty of aggravated sexual

assault (rape) of a child (§ 269, subd. (a)(1)). As to all counts, the jury found defendant
had committed offenses upon multiple victims (§ 667.61, subd. (b)). The trial court

sentenced defendant to state prison for a total term of 130 years to life.
In his timely appeal, defendant raises the following issues: (1) removal of a
sitting juror during deliberations violated defendant’s rights under the Fifth, Sixth, and

Fourteenth Amendments; (2) it was prejudicial error to instruct on expert witness
testimony as to a nonexpert law enforcement officer; (3) the standard jury instruction on

the use of prior statements by witnesses violated the right to a jury trial and due process
of law; (4) the multiple victim findings under section 667.61 must be stricken as to

counts 1 and 4; (5) custody credits were incorrectly calculated; (6) the section 290.3 fine

must be reduced to $300; and (7) the magistrate’s arbitrary rejection of a plea bargain
was an abuse of discretion.

We order modification of the pretrial custody credits and the amount of
assessments on the section 290.3 fine. In all other respects, we affirm.

FACTS

Defendant’s family consisted of his wife, R.L., (mother) and five children—four
girls and one boy. The family shared one bedroom of a two bedroom apartment in La
Puente. The four daughters slept in one bed. Defendant and mother slept on a mattress
on the floor next to the girls’ bed. The son slept on a mattress in the closet. The oldest
1

All statutory references are to the Penal Code, unless otherwise indicated.

2

Pet. App. 75

daughter, D., was 19 at the time of trial in 2010; the son was 18; twin daughters, N. and

G., were 11; and the youngest daughter, A., was 9.

On one occasion, mother returned from an errand and found defendant and D.,
who was 11 or 12 at the time, lying down in the bedroom closet where the son normally
slept. Mother later asked D. if defendant had touched her, but she said he had not.

A. asked mother if defendant was her father. Mother told her that defendant was

her father, but A. did not believe her. A. also asked defendant, who said he was her
father. Later, A. said she had seen defendant touch G. and D.

Mother spoke to G. after hearing A.’s accusation. G. admitted defendant had
touched her and gestured to her crotch with her hand to indicate where she had been
touched. She looked as though she were going to cry.

Mother also spoke with D., who at first denied being touched by defendant, but
when pressed, admitted she had been touched but explained that she did not have the
courage to tell mother. Mother called her sister, who told her to speak to her pastor, who

in turn told her to report it to the authorities. The police were contacted and D., G., and

A. were interviewed.

Offenses Against D.

The molestation of D. began when she was 10 or 11 years old, when defendant

touched the lower portion of her legs, moving his hand up. Shortly thereafter, defendant
called D. into the bedroom closet. He had her pull down her pants and get on her knees.
Defendant pulled down his shorts and tried to put his penis in her “butt.” Defendant

stopped quickly when mother entered the room. D. later denied to mother that anything
happened in the closet, because defendant had told her not to say anything.

,

Defendant placed his penis in D.’s vagina for the first time when she was 11 years

old. He continued to have sexual intercourse with D., with varying frequency, until she
was 16. He had intercourse with her more than three times per year when D. was
between 11 and 14 years old. He always used a condom. Defendant told her she would

3

Pet. App. 76

be ashamed if it was ever revealed she engaged in sex with her father. He also said he

would kill the family and himself. Portions of some molestations of D. were observed by

N. and A. When D. was 17, defendant mistakenly suspected she was pregnant and had

his wife take her to the doctor.

Offenses Against G.

Defendant began molesting G. when she was in the third grade, by putting “his
front private part” in her “butt.” He did this more than one time. They engaged in many
acts of anal and vaginal intercourse. She described how defendant cleaned her after the
acts. She was afraid to tell her mother what was happening. G. did go to the doctor when

she was nine or ten years old, after experiencing pain while urinating and blood in her

urine. 'Hie doctor said she had a vaginal infection with premenstrual bleeding, told her to
drink more water, and prescribed an ointment.

On one occasion N., who was then eight years old, saw defendant on top of G. in

the closet. When A. was also eight, she saw defendant touching G.’s genital area.

Discovery of the Offenses and Investigation

The police investigation into the molestation began in September 2009, after A.’s

disclosure that she had seen defendant touching G. and D., and the girls’ admissions of

the offenses. Due to the lapse in time between the last offense and the reporting of the
molestations, the investigating officer concluded a sexual assault examination would not

yield biological evidence or reveal significant unhealed injuries.

4

Pet. App. 77

Defense

Defendant denied the molestations in his testimony. Mother was jealous and
threatening, and she had admitted having an affair. Defendant had recommended that

mother take D. to the doctor when she was 17 years old.

DISCUSSION

I. Removal of Juror No. 10 During Deliberations

Defendant argues the trial court committed prejudicial error by removing Juror

No. 10 during deliberations after the juror disclosed he had been falsely accused of rape,

which he had not mentioned during jury selection. Defendant contends there is no
evidentiary support for a finding that Juror No. 10 committed misconduct, was biased, or

refused to deliberate.

A. Background

On the second day of deliberations, the foreperson sent the trial court a note
indicating Juror No. 10 had been previously accused of rape and some jurors thought the
juror might be biased. Separately on the note, Juror No. 10 asked to speak to the court.

The trial court spoke on the record with Juror No. 10 and the foreperson on the

next court day. Juror No. 10 said he had been accused of a sexual assault when he was
14 or 15 years old. He and four buddies were walking home from school when a girl said

“hi” to one of them. The boys continued home without incident. The next day, Juror
No. 10 and his friends were called into the dean’s office because the girl said they had all
raped her. Juror No. 10 was “kicked out” of school for a short time. The girl later

admitted making up the story. Juror No. 10 told the court he “just don’t trust that because

5

Pet. App. 78

in my opinion, if somebody said something, then she coerced somebody else . . .

There

was no police involvement in the incident.
The trial court asked if Juror No. 10 had misunderstood the court’s inquiry during

jury selection regarding revealing that type of information. The juror said it did not occur
to him at all during jury selection, but jury deliberations “brought it up.” Juror No. 10

said he did not know whether he could completely set aside that incident, but if he were

instructed to do so, he believed he could comply with the court’s order. He did not think
it had affected him, but someone else had brought up that he may be biased, and he

wanted the court to decide. He said he had participated in the deliberations, including
discussing the issues with the other jurors.

The trial court next inquired of the foreperson regarding Juror No. 10. The

foreperson said Juror No. 10 revealed the prior sexual assault allegation during
deliberations and stated he was basing his evaluation of this case on his prior experience.
All the other jurors feel Juror No. 10 is biased. Once Juror No. 10 mentioned the prior
accusation against him, the foreperson halted deliberations and sent the note to the court.

Juror No. 10 has stopped participating in deliberations. Tire foreperson thought Juror

No. 10 “has mental issues over this, psychological issues.”

The trial court considered lengthy argument by the prosecutor and defense
counsel. The prosecutor urged the juror be removed for bias, reasoning if the incident
was not playing a role in Juror No. 10’s mind, he would not have mentioned it during

deliberations. The foreperson was credible in describing how Juror No. 10 was affected

by the incident, as reflected in his attitude toward deliberations. Defense counsel argued
Juror No. 10 should remain, because the juror told the court he could follow the court’s
instruction to set aside the experience. The foreperson was not clear as to how Juror

No. 10 was refusing to participate in deliberations. Juror No. 10 was trying to be diligent
in having the court decide the existence of bias.

The trial court stated it had listened carefully to the two jurors. Juror No. 10

described a prior experience in which he claims to have been falsely accused of a
crime—essentially the same defense tendered by defendant. The court doubted Juror

6

Pet. App. 79

No. 10 had a simple memory lapse in failing to disclose the incident during jury
selection. The prior incident had a lingering effect on him, because the juror raised the

incident during deliberations. The court found that Juror No. 10 deliberately withheld the

information in response to “a series of different questions posed by this court,” “such as
have you or anyone close to you been arrested, accused, charged, or brought to trial.

Whether or not you, yourself or anyone close to you have been affected by conduct

similar to the allegations in this case. Whether or not there is anything about the nature

of the charges which may prevent you from being fair.” The court stated that those
standard questions were asked of all the jurors, including Juror No. 10, who failed to

disclose the incident. The fact Juror No. 10 raised the false accusation against him during

deliberations lead the court to conclude the juror was biased and had not followed the
court’s instructions. Juror No. 10 was ordered removed in order to ensure the integrity of
the process, and the jury began deliberations anew after an alternate was seated as a juror.

B. Standard of Review and Relevant Principles

The controlling standard for removal of a sworn juror was settled in People v.
Barnwell (2007) 41 Cal.4th 1038, 1052 (Barnwell). Rejecting a substantial evidence

standard of review, the court instead adopted “the more stringent demonstrable reality
standard” which “more fully reflects an appellate court’s obligation to protect a

.

defendant’s fundamental rights to due process and to a fair trial by an unbiased jury.”
(Ibid.)

The demonstrable reality test “requires a showing that the court as trier of fact did

rely on evidence that, in light of the entire record, supports its conclusion that bias was
established. It is important to make clear that a reviewing court does not reweigh the

evidence under either test. Under the demonstrable reality standard, however, the
reviewing court must be confident that the trial court’s conclusion is manifestly supported
by evidence on which the court actually relied.” (Barnwell, supra, 41 Cal.4th at
pp. 1052-1053.)

7

Pet. App. 80

In applying the demonstrable reality test, “the reviewing panel will consider not
just the evidence itself, but also the record of reasons the court provides. A trial court

facilitates review when it expressly sets out its analysis of the evidence, why it reposed

greater weight on some part of it and less on another, and the basis of its ultimate
conclusion that a juror was failing to follow the oath. In taking the serious step of

removing a deliberating juror the court must be mindful of its duty to provide a record
that supports its decision by a demonstrable reality.

“The evidence bearing on the question whether a juror has exhibited a
disqualifying bias during deliberations may be in conflict. Often, the identified juror will
deny it and other jurors will testify to examples of how he or she has revealed it. (See,

e.g., [People v.] Thomas [(1990)] 218 Cal.App.3d 1477, 1482-1485 [bias against police

officers].) In such a case the trial court must weigh the credibility of those whose
testimony it receives, taking into account the nuances attendant upon live testimony. The

trial court may also draw upon the observations it has made of the jurors during voir dire

and the trial itself. Naturally, in such circumstances, we afford deference to the trial

court’s factual determinations, based, as they are, on firsthand observations unavailable to
us on appeal.” (Barnwell, supra, 41 Cal.4th at p. 1053.)

C. Analysis

The trial court made two findings in removing juror No. 10. First, the court found
Juror No. 10 had deliberately failed to disclose that he had been falsely accused of a

sexual assault. Second, the juror demonstrated bias by raising that prior incident during
deliberations. We conclude both finding satisfy the demonstrable reality standard for
removal of a juror during deliberations.

The trial court created a record of remarkable clarity for purposes of review of this

sensitive issue. The court articulated the contents of the jury communications and
conducted a full, on-the-record examination of Juror No. 10 and the foreperson. The
court allowed the prosecutor and defense counsel to make extensive arguments regarding

8

Pet. App. 81

whether Juror No. 10 should be removed. The court’s ruling unambiguously set forth its

reasoning and conclusion. We are satisfied this is the type of record envisioned by our
Supreme Court in adopting the demonstrable reality standard for removal of a juror.

The trial court noted in its ruling that the jurors had been asked during voir dire

whether they or anyone close to them had “been arrested, accused, charged, or brought to

trial.”2 It is undisputed that Juror No. 10 made no mention during jury selection that he
had been the victim of a false accusation of rape. During the court’s investigation of the
issue of juror bias, Juror No. 10 admitted he had been falsely accused of rape. When
asked if he misunderstood the court’s inquiry during voir dire, Juror No. 10 said it did not

occur to him to reveal the incident, and he did not recall it during questioning. He did

bring up the accusation during deliberations.

We agree with the trial court’s rejection of Juror No. 10’s explanation for not
mentioning the accusation against him during voir dire. The issue of prior accusations

was directly presented to the prospective jurors. Juror No. 10 had been falsely accused or

rape, yet he remained silent on the subject. The court’s conclusion that this constituted
misconduct is supported by facts in the record which satisfy the demonstrable reality

standard.

Intentional concealment of material information by a juror may justify removal,
although juror removal may not be based on mere inadvertent or unintentional failures to
disclose information. (People v. Wilson (2008) 44 Cal.4th 758, 823 (Wilson); People v.
McPeters (1992) 2 Cal.4th 1148, 1175.) Where, however, a potential juror is not

2

The record on appeal does not include a reporter’s transcript of entire voir dire of
the jury. The absence of a complete record, in and of itself, is sufficient to defeat
defendant’s contention. “An appellant has the burden to provide a record sufficient to
support its claim of error. (Aguilar v. Avis Rent A Car System, Inc. (1999) 21 Cal.4th
121, 132.) Absent an indication in the record that an error occurred, we must presume
that there was no error. (Walling v. Kimball (1941) 17 Cal.2d 364, 373-374; Gee v.
American Realty & Construction, Inc. (2002) 99 Cal.App.4th 1412, 1416.)” (Bullockv.
Philip Morris USA, Inc. (2008) 159 Cal.App.4th 655, 678.)

9

Pet. App. 82

questioned on a topic, there is no concealment of information justifying removal of the

juror. (Wilson, supra, at p. 823.) Juror No. 10 was directly asked in jury selection if he

or anyone close to him had been accused of a crime, or affected by conduct similar to that
involved in the case. Juror No. 10 heard the questions but did not reveal his own similar

experience. The trial court witnessed the juror during jury selection and heard the
improbable explanation for the juror’s conduct when the issue of misconduct arose.

Based on the direct questions asked in the selection process and the juror’s lack of a
reasonable response, the court’s finding of deliberate concealment of material

information is established as a demonstrable reality.
The trial court further found that Juror No. 10 was biased. “A juror who is
actually biased is unable to perform the duty to fairly deliberate and thus is subject to

discharge. (People v. Ayala (2000) 24 Cal.4th 243, 272 [(Ayala)]; People v. Nesler

(1997) 16 Cal.4th 561, 581 [(Nesler)] (lead opn.).)” (Barnwell, supra, 41 Cal.4th at
p. 1051.) “Bias may be established by the testimony of other jurors. (Ayala, at p. 272;

Nesler, atp. 581.)” (Barnwell, supra, at p. 1051.)
The trial court properly found a demonstrable reality of bias on the part of Juror
No. 10. The juror failed to disclose the false accusation against him, despite the direct

questions of the court. Once deliberations began, Juror No. 10 brought up his experience,
and he admitted to the court it had affected his deliberations. Although the juror was not

convinced he was biased, he told the court other jurors believed he was, and he wanted
“you guys” to decide if he should be on the case. The foreperson confirmed Juror No. 10
brought up the prior incident, and Juror No. 10 stated he was relying upon it in evaluating

the evidence. According to the foreperson, all the other jurors believed Juror No. 10 was
biased, and the juror was not deliberating.

The trial court reasoned that Juror No. 10’s bias was established by his reference

during deliberations to the juror’s experience as the victim of a false sexual assault
allegation. The court ruled that removal of Juror No. 10 was necessary to ensure that

both sides of the case received a fair trial by an impartial jury. The court’s ruling, clearly

articulating an express finding of bias, is more compelling than the implied finding of

10

Pet. App. 83

bias deemed sufficient to justify removal of a juror in Barnwell. (See Barnwell, supra, 41

Cal.4th at p. 1053 [upholding removal of juror under demonstrable reality test due to

jurors general “‘disbelief of police officers’ testimony,”’ although the trial court did not
expressly reject juror’s disclaimer of bias against officers’ testimony].)

II. Instruction on Expert Witness Testimony

Detective Terrance Smith, a peace officer for 19 years with 3 years’ experience in

the Special Victims Bureau of the Los Angeles County Sheriff s Department, explained

in his testimony that he did not refer D. and G. for sexual assault examinations because of
the delay between the molestations and reporting the offenses. Detective Smith testified
it was his opinion that it was unlikely an examination would reveal biological evidence,

the area heals quickly absent significant damage, and “in my opinion, a sexual assault

exam would have been more intrusive to my victim than productive since so much time
elapsed.” At the request of the prosecution, and over defense objection, the trial court

instructed the jury on expert testimony pursuant to Judicial Council of California
Criminal Jury Instructions (2009-2010) CALCRIM No. 332.3 Defendant contends on
appeal the instruction deprived him of his constitutional rights to a fair trial and

confrontation.
We review the trial court’s determination that a witness was a qualified expert

under the deferential abuse of discretion standard, reversing only when the witness

3
CALCRIM No. 332 provides in relevant part as follows: “(A witness
was/Witnesses were) allowed to testify as [an] experts] and to give [an] opinion[s]. You
must consider the opinion[s], but you are not required to accept (it/them) as true or
correct. The meaning and importance of any opinion are for you to decide. In evaluating
the believability of an expert witness, follow the instructions about the believability of
witnesses generally. In addition, consider the expert’s knowledge, skill, experience,
training, and education, the reasons the expert gave for any opinion, and the facts or
information on which the expert relied in reaching that opinion. You must decide whether
information on which the expert relied was true and accurate. You may disregard any
opinion that you find unbelievable, unreasonable, or unsupported by the evidence.”

11

Pet. App. 84

clearly lacks qualifications as an expert. {People v. Wallace (2008) 44 Cal.4th 1032,
1062-1063; People v. Chavez (1985) 39 Cal.3d 823, 828.) When expert testimony is

admitted, the trial court has a sua sponte duty to instruct substantially as follows: “Duly
qualified experts may give their opinions on questions in controversy at a trial. To assist

the jury in deciding such questions, the jury may consider the opinion with the reasons

stated therefor, if any, by the expert who gives the opinion. The jury is not bound to
accept the opinion of any expert as conclusive, but should give to it the weight to which

they shall find it to be entitled. The jury may, however, disregard any such opinion, if it
shall be found by them to be unreasonable. [^] No further instruction on the subject of

opinion evidence need be given.” (§1127b.)
“‘The jury need not be wholly ignorant of the subject matter of the opinion in

order to justify its admission; if that were the test, little expert opinion testimony would
ever be heard. Instead, the statute declares that even if the jury has some knowledge of
the matter, expert opinion may be admitted whenever it would “assist” the jury. It will be
excluded only when it would add nothing at all to the jury’s common fund of

information, i.e., when “the subject of inquiry is one of such common knowledge that

men of ordinary education could reach a conclusion as intelligently as the witness’”
{People v. McDonald{19M) 37 Cal.3d 351, 367).” {People v. McAlpin (1991) 53 Cal.3d

1289, 1299-1300 {McAlpin) [upholding ruling admitting officer’s testimony that it is not
unusual for a parent to refrain from reporting a known molestation of his or her child to
refute inference that parent did not believe child’s complaint of molestation].)
The discussion in McAlpin is instructive. “Most jurors, fortunately, have been

spared the experience of being the parent of a sexually molested child. Lacking that
experience, jurors can rely only on their intuition or on relevant evidence introduced at

trial. It is reasonable to conclude that on the basis of their intuition alone many jurors
would tend to believe that a parent of a molested child, naturally concerned for the

welfare of the child and of other children, would promptly report the crime to the
authorities, just as a parent would be likely to do if the child complained of someone who

had beaten him or stolen his pocket money. Yet here the prosecution had evidence to the

12

Pet. App. 85

contrary—the expert opinion of Officer Miller that in fact it is not at all unusual for a
parent to refrain from reporting a known child molestation, for a number of reasons. Such

evidence would therefore ‘assist the trier of fact’ (Evid. Code, § 801, subd. (a)) by giving
the jurors information they needed to objectively evaluate Anita’s credibility.” (McAlpin,

supra, 53 Cal.3d atp. 1302, fit. omitted.)
Jurors here heard of evidence of molestations but no testimony regarding physical
injury or scientific evidence, such as DNA or blood typing. In order to explain the

absence of medical or biological evidence, Detective Smith, relying on his experience of

a peace officer and investigator in the Special Victims Bureau, explained that due to the
passage of time between the acts and the reporting, he did not expect a sexual assault

examination to reveal biological evidence or evidence of injury. The trial court could
reasonably determine that Detective Smith’s testimony would assist the jury in
determining whether to discount the victims’ testimony due to the lack of corroborating
medical or scientific evidence. The court therefore properly instructed the jury on

consideration of expert testimony.
Rejection of the claim on the merits under state law “necessarily leads to

!

rejection” of the constitutional ‘“gloss’” defendant attaches to the argument. (People v.
Lewis (2006) 39 Cal.4th 970, 990, fh. 5 (feww).) “No separate constitutional discussion

is required in such cases, and we therefore provide none.” (Ibid.)

Moreover, any error was plainly nonprejudicial under both the state and federal
Constitutions. Defendant cannot point to any portion of the prosecutor’s argument to the

jury in which the challenged instruction was mentioned or Detective Smith was described

as an expert. The prosecution case was strong, and its witnesses consistent in describing

the pattern of conduct engaged in by defendant. (People v. Watson (1956) 46 Cal.2d 818,
836; Chapman v. California (1967) 386 U.S. 18, 24.) We are satisfied the instruction
played no role in defendant’s trial.

13

Pet. App. 86

III. CALCRIM No. 318 as a Denial of the Right to a Jury Trial and Due Process

Defendant argues that CALCRIM No. 318 lessens the prosecution’s burden of
proof and effectively tells the jury that if a witness made an out-of-court statement, it may

conclude the statement was true simply because it was made.
CALCRIM No. 318 provides as follows: “You have heard evidence of [a]

statementfs] that a witness made before the trial. If you decide that the witness made

(that/those) statementfs], you may use (that/those) statementfs] in two ways: ffl] 1. To

evaluate whether the witness’s testimony in court is believable; f^J] AND f^f] 2. As
evidence that the information in (that/those) earlier statementfs] is true.”

There is nothing in the permissive language of the instruction to support the
interpretation suggested by defendant, nor does the instruction undercut the other

instructions requiring the prosecution to prove guilt beyond a reasonable doubt. As

defendant acknowledges, his argument was rejected in People v. Hudson (2009) 175
Cal.App.4th 1025, 1028-1029. We agree with the holding in Hudson and reject the

contention.

IV. Penal Code Section 667.61 Allegations in Counts 1 and 4

Defendant next contends the multiple victim allegations under section 667.61,

subdivision (b) were dismissed on the prosecutor’s motion before trial as to counts 1
and 4. Defendant reasons that the multiple victim findings in those counts must therefore

be reversed.

As the Attorney General points out, the prosecutor did not move to dismiss the

allegations under subdivision (b) of section 667.61. Instead, the prosecutor moved to
dismiss the allegations under subdivisions (a) and (d) of the statute in counts 1 and 4.

The trial court clarified that the allegations under subdivision (b) of the statute remained.
The contention has no merit.

14

Pet. App. 87

V. Reduction of the Section 290.3 Fine
The trial court imposed a $500 sex offense fine under section 290.3, subdivision

(a),4 without mention of penalty assessments. The abstract of judgment reflected a $500
fine, plus a penalty assessment of $1400 and a 20 percent surcharge of $ 100 for a total of
*

$2,000. Defendant argues the base fine must be reduced to $300, plus penalty
assessments of $780 for a total of $1,080.

The Attorney General contends the $500 fine was properly imposed, because
defendant suffered more than one conviction. The Attorney General is correct. (People
v. Walz (2008) 160 Cal.App.4th 1364, 1371; People v. O’Neal (2004) 122 Cal.App.4th

817, 822.) Defendant recognized these authorities in his reply brief and makes no further

argument on the merits of the section 290.3, subdivision (a) fme. The Attorney General,
however, calculates the total penalty assessments should be $1,300, bringing the total of

the fine plus assessments to $1,800.
In our view, the proper assessments added to the $500 section 290.3 fine are as
follows: a $500 state penalty (§ 1464, subd. (a)(1)); a $350 county fee (Gov. Code,

§ 76000, subd. (a)(1)); a $100 state surcharge (§ 1465.7, subd. (a)); a $150 state court
construction penalty (Gov. Code, § 70372, subd. (a)(1); a $50 DNA penalty (Gov. Code,

§ 76104.6, subd. (a)(1)); a $50 state only DNA penalty (Gov. Code, § 76104.7, subd. (a));

and a $100 emergency medical services penalty (Gov. Code, § 76000.5, subd. (a)(1)).
The correct assessments total $1,300. The judgment is corrected accordingly.

There is no need to remand the matter to the trial court for further proceedings on these

4
Section 290.3 provides in pertinent part as follows: “(a) Every person who is
convicted of any offense specified in subdivision (c) of Section 290 shall, in addition to
any imprisonment or fine, or both, imposed for commission of the underlying offense, be
punished by a fine of three hundred dollars ($300) upon the first conviction or a fine of
five hundred dollars ($500) upon the second and each subsequent conviction, unless the
court determines that the defendant does not have the ability to pay the fine.”

15

Pet. App. 88

assessments. (People v. Volt (2011) 200 Cal.App.4th 1353, 1373; People v. Sharret

(2011) 191 Cal.App.4th 859, 863-864, 870-871.)

VI. Correction of Presentence Custody Credits

Defendant contends, and the Attorney General agrees, that defendant was entitled
to actual credit for time served of 458 days, plus 68 days of section 2933.1 credits for a

total of 526. The trial court had given credit for 430 days served and 64 days under

section 2933.1 for a total of 494. We agree with the calculations and order the judgment
amended accordingly.

VII. Magistrate’s Rejection of the Plea

In a supplemental opening brief, defendant argues the preliminary hearing
magistrate abused his discretion and violated due process by rejecting a plea agreement.

We disagree that defendant has established reversible error on appeal.

A. Background
Defendant was originally represented by the public defender. Prior to the
preliminary hearing, private counsel substituted in and was responsible for representing

defendant through the preliminary hearing. The record reflects private counsel was
granted multiple continuances until a bench officer denied another defense motion to

continue and transferred the cause to the magistrate for preliminary hearing on
December 14, 2009.

Once in the preliminary hearing court, defense counsel again sought a further
continuance either for additional discovery or to work on a settlement. Counsel stated an
offer of 20 years in state prison had been made at the last appearance, but that offer was

no longer available after the continuance, and the new offer was for 24 years in prison.

16

Pet. App. 89

Defense counsel indicated the magistrate was aware counsel had been attempting
for several hours to advise defendant regarding the offer and communicating with
defendant’s family. Counsel requested additional time to speak to the family and further

discuss the terms of the settlement. Counsel requested another seven- to ten-day
continuance, repeating a complaint about delays in obtaining discovery.

The prosecutor advised the magistrate that other judicial officers had already ruled
on discovery, prior continuances had been granted, and a request to continue on that day
had been denied. She represented that the victims had been sitting in court all morning,

defendant did not need to plead, and “we don’t need anybody to go back there and twist

his arm. If he doesn’t want to take the offer, that’s fine.”
The magistrate allowed defense counsel to respond. Counsel said defendant had
signed off on the change of plea form, and if there was not going to be a continuance,

defendant would accept the offer. The magistrate said the law does not require
completion of all possible discovery before a preliminary hearing. Defense counsel had

the investigating officer’s summary of the case. The case arrived in the magistrate’s
court at 11:20 a.m. and conversations continued until noon. The parties had been ordered

to return at 1:30 p.m. and it was now 2:25 p.m. The prosecution was free to rescind its
previous offer of 20 years because that was an executive decision. Defense counsel had

substituted in on November 2, and it was now six weeks later and the preliminary hearing

had not yet been held.
Attention then turned to taking defendant’s guilty plea, with the magistrate
advising the prosecutor that “I don’t take a lot of waivers, so if you want things done in a
more formalized manner, I will call upon you at that point in time, and you can ask

whatever questions or go down the usual checklist.” The prosecutor asked, “Can I just
take the entire plea?” The magistrate agreed, “but let me get one thing out of the way

first, and then I’ll let you jump in.”
After defense counsel conferred with defendant, counsel indicated they were ready

to proceed. The magistrate asked defendant if he had signed and placed his initials on the
waiver of rights form. Defendant replied, “Yes.”

17

Pet. App. 90

The magistrate asked if the interpreter had “read to you the paragraphs on each of
the pages with your constitutional rights and consequences.” Defendant said, “Yes.” The

magistrate asked, “While the interpreter was reading these constitutional rights and
consequences to you, did you understand them?” Defendant replied, “Not all of it.”

The magistrate stated, “Good. Call your first witness” and “[a] 11 deals are off the
table.” Defense counsel said he just needed one moment with defendant, as he had “been
over this for two hours.” The magistrate replied, “We cannot do that. I’ve just tom up

the waiver of rights form. I’m not going to take a guilty plea from a not guilty man.
Never. Call your first witness.”

Shortly thereafter, defense counsel explained that defendant wanted the deal and
was not rejecting the entire plea. Defendant was asking about restitution, because he

does not have money to pay and he is going to be incarcerated. Defendant wanted to
plead and would pay the restitution. The magistrate explained that defendant “looked
extremely reluctant all the way through this entire process” and denied the request to

change his plea, stating “he’ll have ample opportunity to plead at some future time after
he’s seen the evidence, should he wish to do so.”

Defendant argues the magistrate abused his discretion when he rejected the plea
and tore up the waiver form after defendant stated he did not understand everything the

interpreter explained to him in translating the document. Defendant argues “the

[magistrate’s] conduct here was nothing if not arbitrary,” punishing defendant for not
understanding the interpreter’s translation. Defendant had not claimed he was not guilty,

he merely responded honestly to the magistrate’s question, and his response was not a
rational reason to reject the plea agreement. This was a violation of defendant’s right to

federal due process, which protects against arbitrary action of the government.
Defendant suffered prejudice, in that instead of a 24-year sentence, he now faces 130

years to life. He seeks reversal and remand to the trial court for consideration of the plea
bargain.

18

Pet. App. 91

B. Discussion
The trial court never had an opportunity to rule on the propriety of the actions of

the magistrate, as defendant failed to make a motion to dismiss under section 995. Under

these circumstances, the issue is forfeited for purposes of direct appeal. “We hold that
the failure to move to set aside the information (Pen. Code, § 995) bars the defense from
questioning on appeal any irregularity in the preliminary examination (Pen. Code, § 996).
We thereby follow a long line of decisions in both this court and the Courts of Appeal,

uniformly holding that section 996 forecloses an attack on the preliminary examination in
the absence of a motion under section 995. [Citations.]” {People v. Harris (1967) 67
Cal.2d 866, 870, fh. omitted; People v. Pendergrass (1986) 182 Cal.App.3d 63, 67 [“A

failure to move to set aside the information in the superior court bars the defense from
questioning on appeal any ruling made at the preliminary hearing.”].)
In addition to the issue of forfeiture, defendant cannot establish prejudice, as

defined by our Supreme Court, from the magistrate’s decision not to complete the plea.
“Irregularities in pretrial commitment proceedings that are not jurisdictional in the

fundamental sense require reversal on appeal only where the defendant shows he was
deprived of due process or suffered prejudice as a result. {People v. Millwee (1998) 18

Cal.4th 96, 121, citing People v. Pompa-Ortiz (1980) 27 Cal.3d 519, 529.)” {People v.

Lewis, supra, 39 Cal.4th at p. 990.) Defendant suffered no prejudice at trial from the
magistrate’s decision to terminate the attempt at a guilty plea. We have determined that
no error, and certainly no prejudicial error, has been shown at trial. The record of post­

preliminary proceedings contains no suggestion that defendant expressed any desire to
settle his case without a trial, or that he had an actual interest in the earlier offer of 24
years. Assuming some irregularity occurred at the preliminary hearing—an issue we

need not reach—we are satisfied that defendant has not shown the irregularity to be
jurisdictional.

19

Pet. App. 92

DISPOSITION
The trial court is directed to (1) amend the abstract of judgment to reflect that

assessments on the $500 Penal Code section 290.3 fine total $1,300, as set forth in this
opinion, and (2) amend the award of presentence custody credits to reflect 458 days
served, plus 68 days of Penal Code section 2933.1 credits, for a total of 526 days. A copy

of the amended abstract of judgment shall be forwarded in a timely fashion to the

Department of Corrections and Rehabilitation. In all other respects, the judgment is
affirmed.

KRIEGLER, J.

We concur:

TURNER, P. J.

f\

ARMSTRONG, J.

<O
ej
Li
i—
LU —
IxJ
OO
c? '-lJ
qcu

cn

' . : 1

"r

•1 1

co
-"I,

s—.

20

Pet. App. 93

G&M

■ DO’L.te'W i

I LOS ANGELES |
} Jlhi 1 4 2012 !

CRV

ITOS

;

Gary A. Lieberman
Office of the Attorney General
300 South Spring Street
Fifth Floor, North Tower
Los Angeles, CA 90013

Division 5
THE PEOPLE,
Plaintiff and Respondent,
v.
ARTURO BELTRAN,
Defendant and Appellant.
B229725

Pet. App. 94

Lodged Doc. No. 1
CV 13-1624-JLS (JEM)

ATTORNEY GENERAL
COURT OF APPEAL
SECOND APPELLATE DISTRICT
STATE OF CALIFORNIA
PEOPLE OF THE STATE OF CALIFORNIA,
Plaintiff and RESPONDENT

No. KA088180

Vs

01 - BELTRAN, ARTURO
Volume 1 of 2 Volumes
Notice of appeal filing date: 12/13/10

Defendant(s) and APPELLANT

CLERK’S TRANSCRIPT
PAGE 1 to 152
Appearances:

Appeal from the Superior Court,
County of Los Angeles - East District

Counsel for Plaintiff:
THE ATTORNEY GENERAL

Honorable MIKE CAMACHO
Judge

Counsel for Defendant:

C.A.P.
OCT - 2 20’3
r OF Cftt~'bePVtV
BY_____________________

Date Mailed to:
Defendant (in pro per)
Defendant's Trial Attorney
Defendant's Appellate Attorney
District Attorney
Attorney General

FEB 0 6 2011

^•59'^010^
Pet. App. 95

[

1

000001
1

CASE NUMBER:

KA088180

2

CASE NAME:

PEOPLE V.

3

POMONA,

MONDAY,

4

DEPARTMENT EA-L

HON .

5

APPEARANCES:

(AS HERETOFORE NOTED.)

6

REPORTER:

WENDY SCOTT,

7

TIME:

2:10 P.M.

CALIFORNIA

8

ARTURO BELTRAN

2009

DECEMBER 14,

JUDGE

MARRS,

BRUCE F.

10549

NO.

C.S.R.

--O0O--

9
10

(THE DEFENDANT ASSISTED BY SPANISH

11

INTERPRETERS ROSA MARIA ARROYO,

12

LANDARIBA-ARZAGA,

KARMELE

AND EMILIO PIGNOCCHI.)

13
14

THE COURT:

LET'S GO BACK ON THE RECORD IN THE

15

ARTURO BELTRAN MATTER,

16

REFLECT THE PARTIES AND THE DEFENDANT ARE PRESENT,

17

THE INTERPRETER.

19

INTERPRETER ARROYO:

ROSA MARIA ARROYO,

WITH

OATH ON

FILE.

21

THE COURT:

COUNSEL.

22

MR.

THANK YOU,

23

THE RECORD SHOULD

WHO IS?

18

20

KA088180.

VIRAG:

YOUR HONOR.

I APPRECIATE

IT.

24

GOOD AFTERNOON,

25

BRIAN VIRAG ON BEHALF OF MR.

26

AND I JUST WANTED TO INDICATE TO THE COURT

YOUR HONOR.
BELTRAN.

I'VE

27

EXACTLY WHERE WE'RE AT ON THIS PARTICULAR MATTER.

28

HAD AN OPPORTUNITY TO SPEAK WITH MY CLIENT REGARDING THE

Pet. App. 96

r

2

1

OFFER THAT WAS CONVEYED TODAY BY THE PEOPLE.

2

I WOULD LIKE TO INDICATE FOR THE RECORD THAT

3

EARLIER THIS MORNING I HAD MADE A MOTION TO THE COURT TO

4

CONTINUE THIS PARTICULAR PRELIMINARY HEARING BECAUSE,

5

INDICATED IN MY MOVING PAPERS,

6

AFFORDED LESS THAN TWO WEEKS TO PREPARE FOR A CASE THAT'S

7

A

FURTHER,
THAT,

DEFENSE COUNSEL WAS

THAT CARRIES A POTENTIAL LIFE SENTENCE.

8
9

AS I

AND I THINK MORE IMPORTANT THAN

I THINK IT'S IMPORTANT TO INDICATE TO THE COURT WHAT

10

HAS GONE ON DURING THE COURSE OF THE DISCOVERY ON THIS

11

CASE .

12

MY CLIENT WAS ARRAIGNED ON THE 17TH OF NOVEMBER,

13

TIME I HAD NOT BEEN PROVIDED WITH ALL OF THE DISCOVERY.

14

AND THE PROSECUTION WAS ORDERED TO PROVIDE THE DISCOVERY

15

FORTHWITH TO DEFENSE COUNSEL SO THAT HE MAY PREPARE FOR

16

THIS CASE,

17

OPPORTUNITIES.

I HAD COME INTO THIS CASE VERY LATE IN THE GAME.

AT WHICH

AS WELL AS POTENTIALLY EXPLORE SETTLEMENT

18

IT WASN'T UNTIL OVER A WEEK AND CHANGE LATER

19

THAT THE BALANCE OF THE DISCOVERY WAS PROVIDED TO THE

20

DEFENSE COUNSEL.

21

OF DISCOVERY THAT WAS

22

VIDEOTAPE INTERVIEWS OF THE VICTIMS THAT NEITHER WAS

23

DISCLOSED PRIOR THERETO,

24

PUBLIC DEFENDER'S OFFICE,

25

AT THE TIME.

26

AND ,

VERY IMPORTANTLY,

ONE OF THE PIECES

PRESENTED TO THE DEFENSE WAS ACTUAL

NOR WAS IT TURNED OVER TO THE

WHO WAS REPRESENTING MR.

BELTRAN

I HAD INDICATED TO THE COURT THAT IN ORDER

27

TO EFFECTIVELY REPRESENT MR.

28

CASE ,

GIVEN THE CHARGES,

BELTRAN IN THIS PARTICULAR

ALTHOUGH I*M ONLY RETAINED UP TO

Pet. App. 97

r

3

DEFENSE SHOULD BE PROVIDED

1

PRELIMINARY HEARING PURPOSES,

2

AT LEAST AN ADEQUATE OPPORTUNITY TO PREPARE FOR THE PRELIM

3

AND/OR EXPLORE FURTHER SETTLEMENT OPPORTUNITIES.

4

AT THE TIME OF THE LAST HEARING,

5

HAD MADE AN OFFER TO MY CLIENT OF 20 YEARS,

6

INDICATED THAT MY CLIENT

7

ABOUT SOME MORE,

8

BEFORE I COULD BE CERTAIN.

9

MAYBE A WEEK AGO,

10

WHICH I

THAT MY CLIENT HAD TO THINK

BUT I WANTED TO GET ALL THE DISCOVERY

I RECEIVED THE VIDEOTAPES

A WEEK AND A HALF AT BEST.

I SPOKE WITH THE PROSECUTION REGARDING A

11

BRIEF CONTINUANCE,

12

NOT GIVEN THE DISCOVERY.

13

MORNING THAT,

14

THE COURT'S CALENDAR,

15

CONTINUED BEFORE.

16

AND I ONLY HAD THE DISCOVERY,

17

ADMISSION,

18

THE PEOPLE

EVEN TO PROVIDE ME THE WEEK THAT I WAS
I HAD INDICATED EARLIER THIS

IF THE COURT WAS INCLINED,

I DO UNDERSTAND

BUT THIS CASE HAD NEVER BEEN

HE HAD ONLY BEEN ARRAIGNED ON THE 17TH,

BY THE PROSECUTOR'S OWN

ON THE 23RD.

AND THEN WHAT HAD HAPPENED WAS THIS MORNING

19

I HAD BROUGHT THE MOTION,

20

TIMELY SERVED AND FILED TO THE COURT,

21

MOTION WAS DENIED THIS MORNING.

22

SPEAKING WITH THE PROSECUTOR AND MENTIONED THAT MY CLIENT

23

HAD AN INTEREST IN

24

HAD BEEN OFFERED AT THE LAST HEARING,

25

PROSECUTION RESPONDED THAT THAT OFFER IS OFF THE TABLE NOW

26

AND THAT NOW IT'S 24 YEARS AND THAT YOUR CLIENT HAS FIVE

27

OR TEN MINUTES TO DECIDE.

28

THE 1050 MOTION,

WHICH WAS

AND THAT PARTICULAR

SUBSEQUENTLY,

I WAS

PERHAPS TAKING THE 20-YEAR OFFER THAT

AS THE COURT IS AWARE,

AND TO WHICH THE

I'VE BEEN SPENDING

Pet. App. 98

r

4

1

THE LAST SEVERAL HOURS HERE IN THE COURTHOUSE SPEAKING

2

WITH MY CLIENT ATTEMPTING TO ADVISE HIM REGARDING ALL OF

3

THE POSSIBILITIES AND THE OFFERS THAT HAVE BEEN EXTENDED.

4

I HAVE BEEN IN CONTACT WITH HIS

5

HERE IN THE BACK ROW,

6

OF INFORMED DECISION ON THIS.

7

FAMILY,

WHO IS SITTING

IN ORDER TO TRY TO COME TO SOME SORT

AND WHILE MY CLIENT IS AWARE OF THE

8

SIGNIFICANT RISKS AS TO PROCEEDING ON THIS CASE,

9

REQUESTING,

AND I JOIN THAT REQUEST,

10

PROVIDE HIM A

11

GO OVER THIS SIGNIFICANT DECISION,

12

FAMILY,

13

OPPORTUNITY.

14

HE IS

THAT THE COURT

JUST A SHORT AMOUNT OF TIME TO BE ABLE TO

ONE TIME,

AT LEAST WITH HIS
HE CAN HAVE THAT

SO THAT HE CAN

BECAUSE ESSENTIALLY THIS

THE OFFER WAS

15

THRUST UPON MY CLIENT TODAY,

16

TEN MINUTES TO DECIDE WHETHER OR NOT 24 YEARS OF HIS LIFE

17

WAS A REASONABLE OFFER.

18

THIS MORNING,

I WOULD RESPECTFULLY,

WITH FIVE OR

IN LIGHT OF EVERYTHING

19

THAT I'VE MENTIONED TO THE COURT,

20

REQUEST THAT THE COURT PERMIT MY CLIENT A SHORT AMOUNT OF

21

TIME TO BE ABLE TO TALK TO HIS FAMILY AND TO FURTHER

22

DISCUSS THE TERMS AND CONDITIONS AND EFFECT OF THE OFFER

23

THAT'S BEEN COMMUNICATED BY THE PEOPLE.

24

I

I WOULD RESPECTFULLY

EVEN MENTIONED TO THE COURT DOWNSTAIRS

25

THAT WHILE I CAN APPRECIATE THAT MY 1050 REQUESTED 30 DAYS

26

OF CONTINUANCE SO THAT I CAN CONTINUE ON THIS MATTER,

27

I 'M

28

THIS COURT AT THIS POINT WOULD BE TO PERHAPS PERMIT ME AT

THE ONLY THING THAT I WOULD RESPECTFULLY REQUEST OF

Pet. App. 99

|T

5

1

LEAST THE SEVEN OR EIGHT DAYS THAT I LOST IN NOT GETTING

2

THE DISCOVERY WHEN IT WAS ORDERED FORTHWITH,

3

MY CLIENT COULD HAVE THE OPPORTUNITY TO SPEAK WITH HIS

4

FAMILY REGARDING ALL OF THE TERMS AND CONDITIONS.

5

JUST SO THAT

24 YEARS IS A

BECAUSE AS THE COURT IS AWARE,

6

SIGNIFICANT AMOUNT OF TIME,

7

BE ABLE TO GRASP ALL OF THOSE PARTICULAR CONSEQUENCES

8

WITHIN A TEN-MINUTE PERIOD OF TIME,

9

THE OPPORTUNITY TO SPEAK WITH THE FAMILY,

10

RESPECTFULLY,

AND IT'S A LITTLE DIFFICULT TO

ESPECIALLY NOT HAVING

YOUR HONOR,

ET CETERA.

I

ONE THING I

11

WOULD LIKE TO INDICATE TO THE COURT IS THAT I WAS NOT

12

INFORMED BY THE PEOPLE THAT THE 20-YEAR OFFER WOULD BE

13

WITHDRAWN IN THE EVENT THAT IT WASN'T TAKEN AT THE LAST

14

HEARING.

15

MORE REASONABLE FOR THAT OFFER TO HAVE REMAINED OPEN,

16

THAT THE PROSECUTION HAS FINALLY GIVEN THE DEFENSE THE

17

DISCOVERY THAT THEY HAD BEEN IN POSSESSION OF FOR OVER TWO

18

AND A HALF MONTHS.

19

PROVIDED WITH THAT TEN DAYS AGO,

20

AND ,

IN FACT,

I WOULD THINK THAT IT WOULD BE MUCH

AND ESSENTIALLY WE,

RESPECTFULLY,

THE DEFENSE,

NOW

WERE

AND IT'S BEEN REVIEWED.
YOUR HONOR,

I THINK THAT

21

IN LIGHT OF SUCH A SIGNIFICANT DECISION,

22

I WOULD RESPECTFULLY REQUEST THAT,

23

COURT WOULD BE WILLING TO PUT THIS OVER TO PERHAPS THE

24

22ND OF DECEMBER,

25

PROVIDE MY CLIENT THE OPPORTUNITY TO REALLY GO THROUGH THE

26

OFFER AND THE CONSEQUENCES AND SO THAT,

27

HIS

28

A LIFE DECISION,

AT A MINIMUM,

WHICH IS JUST ONE WEEK AWAY,

IF THE

TO AT LEAST

YOU KNOW,

SO HE CAN MAKE HIS DECISION.
AND THAT'S WHAT I WOULD RESPECTFULLY REQUEST

Pet. App. 100

F'

6

1

FROM THE COURT.

2

3

THE COURT:

NOW ,

YOU SAID THAT YOU DIDN'T HAVE

ANY ACCESS TO THE VIDEOTAPES UNTIL ABOUT TEN DAYS AGO.
I ASSUME YOU HAD THE INVESTIGATING OFFICER'S

4

5

REPORTS AND THE INCIDENT REPORTS AS

6

DISCOVERY THAT YOU RECEIVED FROM THE PUBLIC DEFENDER'S

7

OFFICE AND MR.

8

9

MR.

YOUR HONOR,

PART OF THE PACKAGE OF

RONALD WHITENHILL?

VIRAG:

YEAH .

THAT

AS A MATTER OF FACT,

I INDICATED TO THE COURT ON THE DAY THAT I WAS

10

MISSING PAGES ON THAT PARTICULAR

11

DIDN'T HAVE A COMPLETE SET OF THE DISCOVERY.

12

ON THE DISCOVERY AND I

SINCE THAT TIME THE PEOPLE DID CALL MY

13

OFFICE,

14

THE DISCOVERY,

15

AND THAT WAS THE DAY BEFORE THANKSGIVING.

AND THEY DID INDICATE THAT THEY HAD A FRESH SET OF
PLUS THE VIDEOTAPES, AVAILABLE FOR PICK UP,

AND SO I'M

16

- WHAT I'M JUST ASKING,

YOUR

17

HONOR,

18

THAT'S ON THE TABLE FOR THIS PARTICULAR OFFER,

19

BECAUSE THIS CASE HAD NEVER BEEN CONTINUED BEFORE,

20

NEW OFFER WAS JUST COMMUNICATED THIS MORNING TO THE

21

CLIENT,

22

HIM TO HAVE A LITTLE MORE TIME TO ENSURE THAT HE'S MAKING

23

THE DECISION THAT HE WANTS TO.

24

IS THAT IN LIGHT OF THE SIGNIFICANT AMOUNT OF TIME

27
28

AND THE

I WOULD RESPECTFULLY REQUEST JUST A FEW DAYS FOR

THE COURT:

25
26

ESPECIALLY

ALL RIGHT.

THANK YOU.

ANY COMMENTS YOU'D LIKE TO MAKE,
MS .

WHITE-BLACK?

MS .

WHITE-BLACK:
JUDGE,

YES ,

YOUR HONOR.

COMMISSIONER OLSON AND THE BENCH

Pet. App. 101

■T”

7

1

OFFICER ON THE BENCH IN DEPARTMENT F

2

DON'T RECALL THAT BENCH OFFICER'S NAME

3

RULED IN TERMS OF THE DEFENSE'S ALLEGED DISCOVERY ISSUES.

4

DISCOVERY HAS BEEN TURNED OVER.

5

I APOLOGIZE,

I

HAVE ALREADY

I HAD A CONVERSATION WITH MR.

VIRAG ON

6

NOVEMBER THE 2ND.

7

CONVEYED ON OCTOBER THE 15TH.

8

NOVEMBER THE 2ND.

9

ON THAT DATE RE-COMMUNICATING THE OFFER TO HIM AT THAT

THE ORIGINAL OFFER OF 20 YEARS WAS

MR.

VIRAG SUBBED IN ON

I HAD A PERSONAL CONVERSATION WITH HIM

10

TIME .

11

OFFER WITH THE DEFENDANT.

AND IF HE DID NOT ACCEPT THE

12

OFFER AS OF NOVEMBER 17TH,

WE WILL BE PROCEEDING ON

13

PRELIM.

HE INDICATED THAT HE NEEDED TIME TO DISCUSS THAT

14

ON NOVEMBER 17TH,

AFTER COMMISSIONER OLSON

15

DECLINED TO PERMIT MR.

16

AGAIN,

17

THE DISCOVERY,

18

HAD RECEIVED ALL THE DISCOVERY FROM THE PUBLIC DEFENDER'S

19

OFFICE.

20

ADDITIONAL COPY,

21

INDICATE WHAT PAGE THAT HE WAS MISSING,

22

FULL COPY OF THE DISCOVERY,

23

VIDEOTAPED VICTIM'S STATEMENTS.

24

MR.

I,

VIRAG TO CONTINUE THIS MATTER YET

VIRAG THEN CLAIMED TO HAVE PAGES MISSING FROM

WHEN HE HAD PREVIOUSLY ANNOUNCED THAT HE

AS A COURTESY,

FOR MR.

MADE A FULL SET,

VIRAG.

A FULL

BECAUSE HE DID NOT
SO I JUST MADE A

AND I ALSO TURNED OVER THE

THE BENCH OFFICER INDICATED THAT THERE WOULD

25

BE NO FURTHER CONTINUANCES.

26

OPPORTUNITY TO PREPARE ON THIS CASE.

27

COMMUNICATED AND NOT ACCEPTED.

28

COURT ALL MORNING.

THERE'S BEEN SUFFICIENT
THE OFFER WAS

I'VE HAD THESE VICTIMS IN

Pet. App. 102

8

1

THE DEFENDANT IS UNDER NO OBLIGATION TO

WE DON'T NEED ANYBODY TO GO BACK THERE AND TWIST

2

PLEAD.

3

HIS ARM.

4

FINE .

5

DO IT THAT WAY.

WE ARE READY TO PROCEED TO PRELIM,

6

7

IF HE DOESN'T WANT TO TAKE THE OFFER,

THE COURT:

IN ,

MS .

9

THE COURT:

HOW MANY WITNESSES DID YOU SUBPOENA

WHITE-BLACK:

I HAVE TWO,

TWO WITNESSES,

YOUR HONOR.

AND THE REST ARE

SUPPORT PEOPLE?

11

MS .

12

THE COURT:

13

WHITE-BLACK:

YES .

ALL RIGHT.

AND THE AGE OF YOUR WITNESSES?

14

MS.

15

THE COURT:

WHITE-BLACK:

TEN .

18 AND TEN.

ALL RIGHT.

FINE.

THANK YOU.

ANY FURTHER COMMENTS YOU'D LIKE TO MAKE,

16
17

AND WE'LL JUST

INCLUDING YOUR INVESTIGATING OFFICER?

8

10

THAT'S

MR.

VIRAG?

18

MR.

VIRAG:

YOUR HONOR,

I 1M JUST GOING TO

19

INDICATE TO THE COURT THAT MY CLIENT HAS SIGNED OFF ON THE

20

PLEA AGREEMENT,

21

BASED ON THE OFFER THAT WAS GIVEN BY THE PEOPLE THIS

22

MORNING,

23

DEAL .

24

THAT THAT HAS CHANGED AT ALL,

25

MENTIONED TO THE COURT.

26

ON THE PLEA FORM,

THAT WAS COMMUNICATED

AND MY CLIENT DOES WISH TO TAKE THAT PARTICULAR

THAT WAS HIS INDICATION TO ME,

AND I DON'T BELIEVE

EVEN IN LIGHT OF WHAT I HAD

AND SO ESSENTIALLY WHAT I WOULD BE

27

INDICATING TO THE COURT NOW,

28

TO PROVIDE ANY FURTHER CONTINUANCES ON THIS MATTER,

IF THE COURT IS NOT INCLINED

THAT

Pet. App. 103

9

1

MY CLIENT DID INDICATE TO ME THAT HE DOES WANT TO TAKE

2

ACCEPT THE OFFER THAT WAS EXTENDED BY THE PEOPLE AND WOULD

3

LIKE TO FINISH THE CASE TODAY,

4

THE COURT:

FINE .

WHY DON'T YOU PASS THE PINK FORM TO THE

5
6

ALL RIGHT.

YOUR HONOR.

CLERK.

7

LET ME,

FOR THE RECORD,

INDICATE A COUPLE OF

IT'S WELL SETTLED LAW THAT ALL POSSIBLE DISCOVERY

8

THINGS.

9

IS NOT REQUIRED PRIOR TO PRELIMINARY HEARING.

DETECTIVE

10

REPORTS OFTEN WILL SUMMARIZE THE MATERIALS CONTAINED ON

11

AUDIO OR VIDEO,

12

SUMMARY OF THOSE INTERVIEWS.

OR EVEN SURVEILLANCE TAPES,

AND PROVIDE A

BUT TODAY THIS CASE ARRIVED IN THIS COURT

13
14

APPROXIMATELY 11:20 IN THE MORNING.

15

CONTINUED UNTIL 12:00 O'CLOCK.

16

BACK ,

17

AND IT'S NOW 2:25 IN THE AFTERNOON.

CONVERSATIONS

THE PEOPLE WERE ORDERED

DEFENDANT AND THE INTERPRETER AND COUNSEL,

18

THANK YOU

FOR 1:30.

FOR YOUR COMMENTS ABOUT WHETHER

19

THE PEOPLE SHOULD REASONABLY HAVE LEFT THE OFFER OPEN.

20

THAT'S CERTAINLY AN EXECUTIVE DECISION MADE BY THE

21

EXECUTIVE REPRESENTATIVE.

AND IF THE ORIGINAL SUB-IN

22

INDICATE WAS NOVEMBER 2ND,

THIS IS NOW DECEMBER THE 14TH,

23

AND THAT'S ALMOST SIX WEEKS DOWN THE ROAD.

24

SO I THINK,

25

OFFICER HEARING THIS CASE

26

COMMISSIONER OLSON.

27

MS .

28

THE COURT:

REASONABLY SPEAKING,

THE BENCH

THE MINUTE ORDER SAYS IT WAS

I THINK IT WAS JUDGE HUNT.

WHITE-BLACK:

YES .

JUDGE HUNT THIS MORNING.

JUDGE HUNT THIS MORNING.

Pet. App. 104

10

THE MINUTE ORDER LOOKS LIKE IT'S THE LAST

1
2

ONE .

NEVER MIND.

3

MR.

4

5

VIRAG!

OR JUDGE OLSON.

JUDGE HUNT.

SORRY.

DOES THE COURT WISH ME TO SEPARATE THE PAGES

HERE?

6

THE COURT:

THAT 1S USUALLY DONE,

7

PEOPLE GET A COPY,

8

YOUR DEFENDANT WILL OF COURSE GET A COPY.

9

THAT WAY THE

THE COURT WILL GET A COPY,

AND ,

MS .

WHITE-BLACK,

AND YOU AND

I DON'T TAKE A LOT OF

10

WAIVERS,

11

MANNER,

12

YOU CAN ASK WHATEVER QUESTIONS OR GO DOWN THE USUAL

13

CHECKLIST.

14

)

THAT WAS

15

16

SO IF YOU WANT THINGS DONE IN A MORE FORMALIZED
I WILL CALL UPON YOU AT THAT POINT IN TIME,

MS .

WHITE-BLACK:

AND

CAN I JUST TAKE THE ENTIRE

PLEA?
THE COURT:

YOU CAN,

BUT LET ME GET ONE THING OUT

AND THEN I'LL LET YOU JUMP IN.

17

OF THE WAY FIRST,

18

HAVEN'T BEEN IN HERE FOR A PLEA BEFORE,

19

GIVE YOU A LITTLE HEADS-UP THAT I WILL BE CALLING ON YOU.

20

MS .

WHITE-BLACK:

21

MR.

VIRAG:

22

23

SO I WANTED TO

THANK YOU.

IF I MAY JUST HAVE A BRIEF MOMENT TO

CONFER WITH MY CLIENT FOR ABOUT A MINUTE,

THE COURT:

YOU

YOUR HONOR.

YES .

24
25

(THE DEFENDANT AND HIS COUNSEL

26

CONFERRED SOTTO VOCE.)

27
28

THE COURT:

MR.

VIRAG,

ARE WE ABOUT READY?

Pet. App. 105

r

11

1

MR .

2

THE COURT:

3

VIRAG:

MR .

WE ARE,

YOUR HONOR.

ALL RIGHT.

BELTRAN,

THANK YOU.

I HAVE WHAT APPEARS TO BE A

4

PINK WAIVER OF RIGHTS

5

THE LITTLE BOXES AND WHAT ALSO APPEARS TO BE A SIGNATURE

6

BACK HERE ON THE BACK PAGE.

7
8

9
10

11

IN

FORM THAT SEEMS TO HAVE INITIALS

IS THAT YOUR INITIALS AND THE SIGNATURE ON
THE FORM?

THE DEFENDANT:
THE COURT:

YES .

AND DID YOU PLACE THE INITIALS AND

SIGNATURE ON THE FORM?

12

THE DEFENDANT:

13

THE COURT:

YES .

WHILE YOU WERE DOING THAT,

DID THE

14

INTERPRETER HERE READ TO YOU THE PARAGRAPHS ON EACH OF THE

15

PAGES WITH YOUR CONSTITUTIONAL RIGHTS AND CONSEQUENCES?

16

THE DEFENDANT:

17

THE COURT:

YES .

WHILE THE INTERPRETER WAS READING

18

THESE CONSTITUTIONAL RIGHTS AND CONSEQUENCES TO YOU,

19

YOU UNDERSTAND THEM?

20

THE DEFENDANT:

21

THE COURT:

22

DID

NOT ALL OF IT.

GOOD .

CALL YOUR FIRST WITNESS.

I

23

MS .

24

THE COURT:

ALL DEALS ARE OFF THE TABLE.

25

MR.

YOUR HONOR

26

THE COURT:

27

GOING TO DO.

28

MR.

WHITE-BLACK:

VIRAG:

VIRAG:

NO .

THANK YOU,

COUNSEL,

I WOULD ASK,

YOUR HONOR.

WE'VE DONE WHAT WE'RE

YOUR HONOR,

PLEASE,

YOUR

Pet. App. 106

12

1

HONOR

2

TIMES,

3

FOR TWO HOURS.

4

YOUR HONOR,

I'VE BEEN BEFORE YOUR HONOR MANY

AND I JUST NEED ONE MOMENT.

THE COURT:
THE WAIVER OF RIGHTS

6

PLEA FROM A NOT GUILTY MAN.

MS .

9
10

KINDLY,

NEVER.

PLEASE.

WHITE-BLACK:

THANK YOU,

THE COURT:

DOE NO.

YOUR HONOR.

AND IF THE COURT COULD

IF WE COULD REFER TO HER AS JANE DOE NO.

2 .

I'LL BE HAPPY TO REFER TO HER AS JANE

2 .

13

AND THIS REFERS TO COUNT

14

MS .

15

THE COURT:

16

OKAY.

17

THE CLERK:

18

I'M NOT GOING TO TAKE A GUILTY

PEOPLE CALL

11

12

FORM .

CALL YOUR FIRST WITNESS,

8

I'VE JUST TORN UP

WE CANNOT DO THAT.

5

7

I'VE BEEN OVER THIS

WHITE-BLACK:

COUNT 4?

4 AND 5.

4 AND 5.

THANK YOU.

WOULD YOU PLEASE STAND UP AND RAISE

YOUR RIGHT HAND.

19
20

JANE DOE NO.

2,

21

CALLED AS A WITNESS ON BEHALF OF THE PEOPLE,

22

TESTIFIED AS FOLLOWS:

WAS SWORN AND

23
24

THE CLERK:

DO YOU SOLEMNLY STATE THAT THE

25

TESTIMONY YOU MAY GIVE IN THE MATTER NOW PENDING BEFORE

26

THIS COURT SHALL BE THE TRUTH,

27

NOTHING BUT THE TRUTH,

28

THE WITNESS:

THE WHOLE TRUTH,

AND

SO HELP YOU GOD?

YES .

Pet. App. 107

r

13

i

THE CLERK:

2

HAVE A SEATED,

3

THE COURT:

4

OKAY.

5

THANK YOU.

NO.

2

PLEASE BE SEATED.
WE'RE GOING TO CALL YOU JANE DOE

FOR TODAY.
IS THAT OKAY WITH YOU?

6

7

THE WITNESS:

8

THE COURT:

9

AND ,

10
11

MS .

YEAH .

ALL RIGHT.
MISS ,

REPRESENTATIVE ,

YOU'RE A SUPPORT PERSON?

I'M THE VICTIM SERVICES

FOSTER:

YOUR HONOR.

12

THE COURT:

13

MS .

14

PLEASE.

AND YOUR NAME,
MARIA FOSTER,

FOSTER:

PLEASE?

F,

AS IF "FRANK,"

O-S-T-E-R.

15

THE COURT:

16

THANK YOU.

PROCEED,

17

MS .

PLEASE.

WHITE-BLACK:

THANK YOU.

18

19
20

DIRECT EXAMINATION

MS .

WHITE-BLACK:

21

Q

GOOD MORNING,

22

A

GOOD MORNING.

23

MR.

24

VIRAG:

COURT BRIEFLY,

MISS .

YOUR HONOR,

IF I MAY JUST ADDRESS THE

PLEASE?

25

THE COURT:

26

MR.

VIRAG:

ON WHAT SUBJECT?
BEFORE WE GO ANY FURTHER,

I HAD AN

27

OPPORTUNITY TO SPEAK WITH MY CLIENT JUST NOW,

28

INDICATED TO ME THAT IT IS HIS DESIRE TO TAKE THE DEAL,

AND HE HAD

Pet. App. 108

14

1

AND HE DOES WANT TO DO IT.

2

THE COURT:

I DO HAVE A PROBLEM,

3

MR.

YOUR HONOR,

VIRAG:

COUNSEL.

YOU KNOW,

THE ONLY ISSUE

4

THAT I WOULD ASK THE COURT,

5

THAT HE HAD MENTIONED THAT HE HAD A QUESTION,

6

WAS REJECTING THE ENTIRE PLEA,

7

ASKING ABOUT THE RESTITUTION,

8

EARLIER,

9

BECAUSE HE'S GOING TO BE INCARCERATED.

THERE WAS ONLY ONE QUESTION

YOUR HONOR.

NOT THAT HE

HE WAS ONLY

WHICH HE ASKED ME ABOUT

BECAUSE HE SAID THAT HE DOESN'T HAVE MONEY TO PAY

SO I WOULDN'T

10

I DON'T WANT THAT ISSUE TO

11

BE THE

12

INDICATED TO ME THAT IT IS HIS DESIRE TO TAKE THE DEAL,

13

AND THE ONLY ISSUE THAT HE HAD A PROBLEM WITH WAS THE

14

RESTITUTION AND HOW HE WOULD PAY ANY RESTITUTION THAT WAS

15

DUE .

16

MR .

WHAT THROWS OUT THIS DEAL,

BECAUSE,

IN FACT,

HE

SO I DON'T WANT THE COURT TO MISCONSTRUE WHAT

BELTRAN'S INTENTIONS ARE IN THIS CASE.

17

AS I HAD INDICATED TO THE COURT,

18

LAST

19

TERMS AND CONDITIONS,

20

HE HAD SIGNED ALL OF THE

21

HAD SIGNED THE FORM.

22

RESTITUTION.

23

THAT,

MOST OF THE DAY DISCUSSING WITH MR.

I SPENT THE

BELTRAN THE

AND HE HAD GONE THROUGH THE FORM.
INITIALED ALL THE BOXES AND HE

HE HAD ONLY ONE QUESTION REGARDING

AND IF THE COURT WISHES TO INQUIRE REGARDING

THEN THAT WOULD BE FINE.

24

BUT I DO WANT TO INDICATE TO THE COURT THAT

25

HE'S NOT NOT PLEADING TO THE DEAL.

26

HAD A QUESTION WITH REGARD TO RESTITUTION,

27

DON'T WANT THIS COURT TO MISCONSTRUE HIS PLAN.

28

THE PLEAD,

IT'S JUST BECAUSE HE

YOUR HONOR.

I

HE WANTS

THAT'S WHAT HE HAD INDICATED TO ME.

Pet. App. 109

15

IS THAT CORRECT?

1

2
3

THE COURT:

10

)

LOOKED EXTREMELY RELUCTANT ALL

POINT WILL BE

DENIED.

LET'S

FINISH THE PRELIM,

AND HE'LL HAVE

AMPLE OPPORTUNITY TO PLEAD AT SOME FUTURE TIME AFTER HE'S

SEEN THE EVIDENCE,

11

SHOULD HE WISH TO DO SO.

PLEASE BE SEATED.

THANK YOU.

12

MS .

13

THE COURT:

14

HE HAS

MOTION TO CHANGE PLEA AT THIS

8

9

THAT'S

THE WAY THROUGH THIS ENTIRE PROCESS.

6

7

YEAH ,

CORRECT.

4

5

(IN ENGLISH:)

THE DEFENDANT:

WHITE-BLACK:

THANK YOU.

ALL RIGHT.

I THINK WE'RE READY FOR

SOME QUESTIONS.

15

MS.

16

Q

GOOD AFTERNOON,

17

A

GOOD AFTERNOON.

18

Q

CAN YOU TELL US WHAT

20

A

18.

21

Q

AND WHAT'S YOUR DATE OF BIRTH?

22

A

MAY 17TH,

23

Q

AND ,

24

A

ARTURO BELTRAN.

25

Q

AND DO YOU SEE HIM IN COURT TODAY?

26

A

YEAH .

27

Q

CAN YOU PLEASE IDENTIFY HIM BY POINTING TO

19

28

WHITE-BLACK:

THANK YOU.

MISS .

HOW OLD ARE YOU,

MA'AM?

1991.

MA'AM,

WHAT'S YOUR FATHER'S NAME?

HIM AND TELLING US WHAT COLOR HE'S WEARING?

Pet. App. 110

